<html>
<title> - EXPLORING NATIONAL WORK QUEUE'S IMPACT ON CLAIMS PROCESSING</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


      EXPLORING NATIONAL WORK QUEUE'S IMPACT ON CLAIMS PROCESSING

=======================================================================

                                HEARING

                               BEFORE THE
       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, FEBRUARY 14, 2017

                               __________

                            Serial No. 115-2

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      
       

         Available via the World Wide Web: http://www.fdsys.gov
                    
                    
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-368 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2344534c63405650574b464f530d404c4e0d">[email&#160;protected]</a>                    
                    
                    
                    
                    
                    
                    
                    
                    COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BRAD R. WENSTRUP, Ohio               JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   KILILI SABLAN, Northern Mariana 
JODEY ARRINGTON, Texas                   Islands
JOHN RUTHERFORD, Florida             ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                     MIKE BOST, Illinois, Chairman

MIKE COFFMAN, Colorado               ELIZABETH ESTY, Connecticut, 
AMATA RADEWAGEN, America Samoa           Ranking Member
JACK BERGMAN, Michigan               JULIA BROWNLEY, California
JIM BANKS, Indiana                   KILILI SABLAN, Northern Mariana 
                                         Islands

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            
                            C O N T E N T S

                              ----------                              

                       Tuesday, February 14, 2017

                                                                   Page

Exploring National Work Queue's Impact On Claims Processing......     1

                           OPENING STATEMENTS

Honorable Mike Bost, Chairman....................................     1
Honorable Elizabeth Esty, Ranking Member.........................     3

                               WITNESSES

Mr. Thomas J. Murphy, Acting Under Secretary for Benefits, 
  Veterans Benefits Administration, U. S. Department of Veterans 
  Affairs........................................................     4
    Prepared Statement...........................................    31

        Accompanied by:

    Mr. Willie C. Clark, Sr., Deputy Under Secretary for Field 
        Operations, Veterans Benefits Administration, U. S. 
        Department of Veterans Affairs

    Mr. Ronald S. Burke, Jr., Assistant Deputy Under Secretary 
        for Field Operations, National Work Queue, Veterans 
        Benefits Administration, U. S. Department of Veterans 
        Affairs

Mr. Zachary Hearn, Deputy Director, Veterans Affairs and 
  Rehabilitation Division, The American Legion...................    17
    Prepared Statement...........................................    33

Mr. Ryan Gallucci, Deputy Director, National Veterans Service, 
  Veterans of Foreign Wars.......................................    19
    Prepared Statement...........................................    35

Ms. Kelsey Yoon, Director, Veterans Benefits, Vietnam Veterans of 
  America........................................................    20
    Prepared Statement...........................................    39

 
      EXPLORING NATIONAL WORK QUEUE'S IMPACT ON CLAIMS PROCESSING

                              ----------                              


                       Tuesday, February 14, 2017

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:31 a.m., in 
Room 334, Cannon House Office Building, Hon. Mike Bost 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bost, Coffman, Bergman, Esty, and 
Brownley.
    Also Present: Representative Walz.

            OPENING STATEMENT OF MIKE BOST, CHAIRMAN

    Mr. Bost. Good morning, and welcome everyone. This 
oversight hearing of the Subcommittee on Disability Assistance 
and Memorial Affairs will now come to order. I first want to 
take a moment to welcome the Subcommittee Members, especially 
those who are new to Congress and new to the Committee, and 
also those who are returning.
    It is my privilege to have been asked to be Chairman of the 
Subcommittee and I am grateful to Chairman Roe for the 
opportunity. I want to explain that although I look forward to 
working with Ms. Elizabeth Esty from Connecticut as our new 
Ranking Member, under Committee rules Ms. Julia Brownley is 
still the Subcommittee's acting Ranking Member. And my 
understanding is that the Full Committee will schedule a 
business meeting to formalize the Subcommittee assignment and 
our new Subcommittee Ranking Members soon. We also want to make 
sure that we know that we have been joined by the Ranking 
Member Mr. Tim Walz. I want to thank him for being here. I want 
to ask unanimous consent for the Ranking Member Walz, for 
Representatives Esty and Sablan be allowed to sit at the dais 
and ask questions. I also want to ask unanimous consent that 
Ms. Esty be permitted to serve as Ranking Member for this 
hearing pending her ratification before the Full Committee. 
Hearing no objections, so ordered.
    By way of a short introduction this is my second term in 
Congress and on this Subcommittee. I am a father of three and a 
grandfather of 11, and before coming to Congress I worked in a 
small business, in a trucking business, and my wife and I own a 
beauty salon. I was a firefighter and a state representative 
for over 20 years in the State of Illinois. I am also honored 
to say that my family has a tradition of service. I am not only 
a Marine, I am a Marine and a father of a Marine. I am enlisted 
and he is an officer, so it kind of makes for unique 
conversation around our home.
    The House Veterans' Affairs Committee is known for working 
in a bipartisan manner to ensure that the Department of 
Veterans Affairs provides our former military members with the 
best service possible. Our Nation's heroes deserve no less. 
This Subcommittee specifically addresses how to best provide 
for the needs of veterans who have medical conditions relating 
to their service. We also work together to ensure that veterans 
who have passed away are treated with dignity and respect. I 
look forward to continuing this tradition and working with Ms. 
Esty and the Members of the Subcommittee on the issues that are 
critically important to the veterans and our Nation as a whole.
    That said, the first DAMA Subcommittee oversight hearing of 
the 115th Congress will focus on how national work queue, or 
the NWQ, has impacted the department's ability to process 
disability claims. Before the NWQ, the VA's practice was to 
process a veteran's claim at the regional office in the State 
where the veteran lived. The challenge was that some regional 
offices had large backlogs and veterans in those states were 
often left in limbo even if the regional offices in other 
states would have been able to process the claims faster 
because of not being so busy.
    The NWQ is supposed to increase effectiveness and 
efficiency by automatically assigning the claim to the regional 
office with the most capacity. On its face this is a common 
sense idea. The NWQ allows the VA to distribute its workload 
evenly across the Nation to reduce waiting times for veterans 
who file claims for benefits. However, there are some concerns 
about whether the NWQ is actually performing as it should. 
Unfortunately the VA claims backlogs have increased from about 
76,000 backlogged claims on May 2, 2016 before the NWQ was 
fully implemented to now almost, well as of February 4th 
101,000. One has to question whether the distribution of work 
throughout the NWQ is in fact more effective.
    Rather than assigning a claim to a specific employee to 
work the entire claim, the NWQ breaks up the claim into 
individual tasks, such as scheduling a disability exam. After 
one claim processor reviews a file and completes an action, the 
NWQ will likely assign another claim processor for the next 
step. The second claim processor then also has to become 
familiar with the file to determine whether additional action 
is needed for the VA to make a decision. It does not make sense 
to me on how having multiple claim processors completely review 
the same file can possibly save time.
    We will hear from our second panel as well, and it is 
comprised of the veterans service organizations. The VSOs used 
to receive an advance copy of the rating decision before it was 
sent to the veteran. This practice gave the VSOs 48 hours to 
review a proposed decision and raise objections before the 
decision was finalized. But now that the NWQ has been deployed 
VSOs complain that they no longer have a chance to review a 
decision and try to resolve errors before any incorrect 
decision is sent to the veteran. I hope the VA will explain 
what steps it is taking to work with the VSOs to ensure the VA 
decisions are accurate.
    I am also looking forward to learning more about how the VA 
intends to monitor employees' production and quality standards 
now that the NWQ has been implemented. I also hope that the VA 
will tell us more about what the department intends to do to 
tackle the current backlog of appeals and non-rating claims and 
how it plans to leverage NWQ to do so.
    Again, I want to thank the witnesses for being here today. 
And with that I want to call on the distinguished Ranking 
Member Ms. Esty for her opening statement.

         OPENING STATEMENT OF ELIZABETH ESTY, CHAIRMAN

    Ms. Esty. Thank you very much, Mr. Chairman. I appreciate 
your warm welcome and I am delighted to be joining the 
Committee. I am happy to be here today as the Ranking Member 
designate of the Subcommittee on Disability Assistance and 
Memorial Affairs and I am looking forward to working with all 
of you to ensure that the veterans that we are honored to 
represent are receiving all the quality of care and the rapid 
service that they and their families deserve.
    A bit about my background, I am in my third term in 
Congress. I am the daughter of a Navy man, daughter-in-law of 
Air Force, and have niece and nephew who are Army. So we need a 
Marine. You know, we are working on getting a Marine in the 
next generation. My district in the fifth district of 
Connecticut is the proud home to over 40,000 veterans, a long 
service tradition. In my office it is always issue number one, 
two, or three for constituent services. We have made it a core 
part of our mission. I hire veterans proudly in my office and I 
am committed to ensuring that everyone who has served this 
country is served in turn by all those of us who enjoy the 
freedoms that they secured.
    I want to thank Mr. Murphy and the deputies from the VA for 
appearing today to help us understand how the national work 
queue program is functioning now that it has been rolled out in 
all 56 regional offices. Now in speaking with Connecticut 
veterans it is my impression that the claims backlog in our 
region has been reduced significantly and I want to 
congratulate you on that progress. However I also want to 
understand some of the issues and delays that do remain and I 
look forward to working with you to improve the claims process 
going forward.
    To the VSO witnesses here today and to the thousands of VSO 
sponsored veterans service representatives in every part of the 
country, you are providing reassuring and dedicated assistance 
to veterans as they navigate the disability process and 
pensions process. I thank you for your commitment to veterans 
and to making sure that it gets done right.
    I know we are all here for the same purpose. We want to 
enjoy the benefits and speed and accuracy of automation. But we 
need to ensure that that personal touch is ensured and that our 
veterans are treated with that care, and the VSOs have provided 
that. So I am looking forward to hearing from you today how we 
get the best of both worlds, the high tech and the high touch. 
I know that is our objective and we are not there yet, I think 
we are in agreement. But I do know that everyone is committed 
to getting us where we need to be. And so I will be looking 
forward to the testimony and working together collaboratively 
to get us here. I see we have been joined by the current 
ranking, my good friend, colleague, and classmate, Julia 
Brownley, and my work buddy from the gym, I see Mr. Coffman has 
also arrived.
    Mr. Bost. Thank you, Ms. Esty. Okay, I ask that all Members 
waive their opening remarks as per this Committee's custom. Now 
I would like to welcome our first of two panels. Thank you for 
taking the time to be here today. Our first witness is Mr. 
Thomas Murphy, who is the Acting Under Secretary for Benefits. 
He is accompanied this morning by Mr. Willie Clark, the Deputy 
Under Secretary for Field Operations; and Mr. Ronald Burke, the 
Assistant Deputy Under Secretary for Field Operations. I want 
to remind the witnesses that your completed written statement 
will be entered into the hearing record. And Mr. Murphy, you 
are now recognized for five minutes.

                   STATEMENT OF THOMAS MURPHY

    Mr. Murphy. Good morning, Chairman Bost, Ranking Member 
Esty, and Members of the Committee. Thank you for the 
opportunity to discuss the implementation and progress related 
to VA's national work queue.
    The NWQ is a workload prioritization and distribution tool 
designed to match claims assignment capabilities with VA 
capacity regardless of geographical boundaries. This tool 
provides the means necessary to ensure veterans receive a more 
timely decision on their disability claim. The NWQ uses 
sophisticated system capabilities to uniformly prioritize VA's 
electronic claim inventory and allow for the collection of 
enhanced data on processing efficiencies, areas for quality 
improvement, and issues impacting processing capabilities. This 
new environment allows VA the flexibility to move claims to 
locations around the country that have the capacity to take the 
next action on the claim while maintaining the flexibility at 
each facility to assign work to the right person.
    One of the principal fundamentals of NWQ is to ensure that 
veterans are served equally, regardless of where they live. A 
review of claims from 2015 shows that in many instances the 
timeliness of a decision was significantly impacted based 
solely on the state in which a veteran lived. Some were 
receiving decisions in 106 days while others took more than 213 
days, nearly double the time. This variance demonstrates the 
inefficiency of the RO-based claims model, where each regional 
office receives claims based on geography rather than what 
their capacity is to complete work. When NWQ was rolled out the 
average days pending for veterans disability compensation 
claims was 94 days. This was reduced to 85 days by the end of 
fiscal year 2017, a ten percent reduction.
    VA breaks the claims process down into cycles. Upon receipt 
of a claim, VA develops for evidence. The inventory of claims 
awaiting initial review was reduced from approximately 56,000 
to 18,000 as of the end of January, 2017. The average number of 
days to a first development action has dropped from almost 25 
days to less than ten in 2017.
    Following the initial development actions VA prepares a 
rating decision to identify each disability, its severity, and 
its relationship to military service. The amount of time claims 
were awaiting a rating decision has dropped from about 29 days 
to 16 days.
    Once a rating decision is complete, VA prepares award 
notification for the veteran as appropriate. The award time has 
dropped from eight days to four, and the authorization time 
from four days to less than two.
    VA continues to work toward reducing the number of claims 
pending over 125 days. While we acknowledge that some claims 
will take more than that, we have made significant improvements 
over the past two fiscal years. In 2015 VA completed 45 percent 
of its claims within the 125 days. As of January, 2017, 66 
percent were completed within the 125-day standard.
    NWQ is a component of VBMS and one feature that is built 
into the NWQ allows VA to measure the amount of rework in our 
system, which has never been possible before. It allows any VA 
employee in the process to stop the line to correct a 
deficiency, a process similar to that used in industry to 
ensure high quality. Because of this feature we are now able to 
measure process defects based on feedback from our employees. 
As a result, approximately 6,500 claims reviewed in 2017 have 
been returned to an earlier stage for correction. 
Systematically tracking these errors enabled us to tailor 
training and increase accountability in the claims process.
    With an endeavor this large VA spent a lot of time and 
resources on a measured change management approach to NWQ 
implementation. Our efforts included briefing various 
stakeholders, training employees, publications of an NWQ 
playbook, and a myriad of calls and briefings with each 
regional office. VA utilized new data to revise director and 
employee level performance metrics and created standard reports 
used to improve workload management and effectively manage 
resources. Additionally VA is bringing together more than 1,100 
supervisors and managers for continued training on tools and 
best practices.
    While VA is acclimating to this new work environment we 
took the feedback we received to heart and have implemented 
methods to increase the amount of local work assigned to 
regional offices. While we acknowledge that there is more work 
to be done it is important to recognize that these efforts have 
and continue to generate positive and significant results for 
veterans.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions you or Members of the Committee 
may have.

    [The prepared statement of Thomas Murphy appears in the 
Appendix]

    Mr. Bost. Thank you, Mr. Murphy. And I would like to yield 
myself five minutes for questions, if I may. On May 2, 2016 
before the NWQ was fully implemented there were almost 76,000 
backlogged claims. Yet last week there were more than 100,000 
backlogged claims. The increase is about 33 percent over nine 
months. Is it the VA's assertion that the NWQ is improving 
effectiveness and efficiency in processing claims?
    Mr. Murphy. Yes sir, it is. And the reason is we now for 
the first time have the ability to work, look at the right next 
claim that needs to be worked. So today the work that we are 
sending out, we are sending out every claim that is available 
to be worked in the backlog every single day, and then we are 
working back as early as claims that are less than 90 days old 
being pushed out to regional offices. So we are leveraging the 
ability to see the exact case that needs to be done and sending 
it out to a regional office for action at just the right time.
    Mr. Bost. Okay. So but from what we can see of our numbers, 
what specific factors are contributing to that increase that we 
see over that nine-month period? I mean, that is a concern. 
Naturally all of us are wanting to see them processed as quick 
as possible. But to see that increase, what would the agency 
say the reasons for that are?
    Mr. Murphy. I am going to ask Mr. Clark to jump in on this. 
He runs our Field Operations Division.
    Mr. Bost. Okay.
    Mr. Clark. Good morning.
    Mr. Bost. Good morning.
    Mr. Clark. And thank you, Mr. Chairman. It certainly is my 
pleasure to respond this morning. The first thing I would like 
to say is our receipts have gone up since last year. One of the 
things that we know that as we get more efficient, more 
veterans are aware of benefits that are available to them. They 
come in and they submit more claims. Additionally we are taking 
a more balanced approach to the work that we are doing. One of 
the things that we have done in the past and we did great work 
in getting the backlog down in past years, but we focused 
probably too much on the backlog. And we have this old saying 
in the VBA that if you work only the backlog then all you work 
is the backlog. So we have improved in our appeals. We have 
improved in answering phones. We had a blocked call rate of 60 
percent, almost 60 percent a couple of years ago. And now we 
are at zero percent blocked calls. Non-rating, those types of 
claims, dependency claims, we have claims drill pay, we are 
working those claims. So what we are doing, is taking a more 
balanced approach. But we do understand and we do keep an eye 
on our backlog to make sure that we do not have veterans 
waiting too long.
    Mr. Bost. Yes, that would be the concern. And another part 
of my question is what plans do you have to, though we should 
not work off the backlog, I agree with you on that, that alone, 
but that is still a major factor that we can use to say, okay, 
how quick are we getting these processed through? And when you 
see the buildup it is concerning to us. And I am sure it is 
concerning to everyone involved when you see that continue to 
pile up. So what intention, you know, what do we see out there 
that we can do to speed the process up?
    Mr. Murphy. I will take that one, sir. About six months ago 
I took a look at where we were spending our money in terms of 
overtime dollars, and the number of people that we had, and the 
number of vacancies that we carried. And as a result I went out 
to our top 25 percent performing offices and increased their 
authorized end strength. If you look at my authorized end 
strength today, the day the hiring freeze was put on we had 250 
people above authorized head count. And the reason for that is 
I took very high cost overtime dollars and I converted it into 
full time labor. When those people start into the process it 
takes about a year to get a VSR up to standard and ready to 
work; it takes 18 months to two years for RVSRs. My point is 
this. Six months ago I started that action and in a few more 
months you are going to see VSRs in place doing better 
processing and you are going to see more raters in place within 
the next six months.
    Mr. Bost. All right. The other concern that I have right 
quick, and I am going to finish this up fairly quickly because 
my time is running out, but the concern we have of rather than 
one person dealing with a particular claim and having it handed 
off over and over and over again quite often can cause a lot of 
confusion. And my concern, do you have that same concern that 
maybe one person is not focusing on one claim? And as it passes 
through multiple hands, do you see a problem with that?
    Mr. Murphy. I am going to ask Ron to talk about this one. 
And yes, I had that concern. But the changes we have made over 
the last several years, it is much smaller than it was.
    Mr. Burke. Mr. Chairman, thank you for that question and 
semper fi. To talk about that topic specifically, we have 
learned, this is still a relatively new initiative that we are 
still learning from. We absolutely wanted to make sure that our 
claims assignment and our claims distribution was matched to 
where capacity was. As we get more data from the NWQ system we 
are learning better ways to optimize this. As such, one of the 
things that we are going to be doing in our next VBMS release 
is actually maximizing the amount of work that goes to the home 
station. We believe that will do several things. Number one, it 
will most likely assign a claim back to an employee that has 
seen it before. And as one of two former VSOs on this panel, 
and one of three veterans, we also received that stakeholder 
feedback from our VSOs, that the inability to have that work 
assigned to the home station more frequently was impacting them 
as well. We have heard that feedback. We have created an 
enhancement request that will actually in our March release 
allow us to almost reverse the percentage of claims being 
assigned to the same station. We believe that will help with 
the issue of multi-looks that you raise, sir.
    Mr. Bost. Okay. And just real quickly if you can, because I 
know my time has expired, but how many on average would you 
think employees handle one claim as it processes through under 
the existing system?
    Mr. Burke. Well what I can tell you, sir, is right now that 
the amount of work per each step in the process that is being 
assigned to the home station is about 30 to 35 percent of each 
daily distribution. We believe with the March release that will 
allow us to increase it above 50 percent, maybe as high as mid-
fifties. That will significantly reduce the amount of instances 
where multiple employees are seeing the same--
    Mr. Bost. Do you have an average of how many people touch 
the claims as they go through?
    Mr. Burke. Sir, it really depends on the claim itself. So I 
do not have a number--
    Mr. Bost. Three? Six? Eight?
    Mr. Burke [continued]. Normally in any environment it takes 
five to six touches for a claim from initial development to 
completion--
    Mr. Bost. Okay.
    Mr. Burke [continued]. --to begin with.
    Mr. Bost. We would like to add that number to the record, 
then. And I would like to turn it over to the Ranking Member 
Ms. Esty.
    Ms. Esty. Thank you, Mr. Chairman. And thank you all for 
your service and your commitment to work together with us to 
serve veterans better.
    I actually want to pick up where the Chairman left off on 
this issue of ownership. I have a lot of manufacturing 
companies in my district. I am a third generation manufacturing 
daughter and granddaughter. This issue about continuous 
improvement and lean does depend on ownership. The VSOs have 
been that ownership. I think we need to figure out how we 
ensure that we are reducing the number of touches where 
appropriate. Now obviously you may have very complex claims and 
those are going to require and should go to the people best 
able to do that. There are specialized claims that we know are 
much more fairly and rapidly processed in specialized settings. 
I think we do need to work for the typical claim to keep it 
closer to home, keep the VSOs engaged, and reduce the number of 
touches that we need to have. So if you could talk a little bit 
about in addition you just spoke, Mr. Burke, about in March 
issuing a directive to reduce that number so more of it stays 
in the ROs. But what else are you hearing in terms of feedback 
that will not just reduce the time but improve the accuracy and 
the engagement which is going to be necessary to keep our 
veterans feeling served as well as being served?
    Mr. Burke. Yes, ma'am. Thank you for that question. Let me 
first start with the latest part of your question about 
quality. One of the things we are also building into our 
process is an automated, we are calling it the diagnostic tool. 
This is purely based to improve and focus on the quality of our 
claims processing at all steps. This is an automated feature 
that will run in the background as an employee is processing a 
claim. And before that claim moves to the next step that 
employee will have the opportunity to hit a diagnostic check 
and it is designed to catch some of the major trends that we 
see now with stepped steps or confusion in the claims process. 
So we believe that that will help.
    I am actually leading an endeavor to, we bring 1,100, and 
we are still in this process, bringing 1,100 of our first line 
supervisors and division chiefs physically into a location for 
training. The purpose of this training is to talk about our 
trends, the new reports, and we have created a standard suite 
of reports so that our supervisors can lead better, they can 
see issues with the claims process. But on the issue of 
ownership what we are stressing the importance of is that we 
have got to treat this national work unit environment like an 
ecosystem, meaning every action that we take on a veteran's 
claim has a subsequent reaction. And what we are stressing is 
that we want pride and ownership from our employees in every 
action they take on a veteran's claim, whether it is the entire 
claim or pieces of the claim.
    But to that point, what we see is a valued need to route 
more work to the local station than what we have been doing 
since implementation. And again, that feedback not only comes 
from our employees but from our VSO partners and other 
stakeholders.
    Ms. Esty. Thank you. I want to follow up also on the 
question of how we are having, you know, the backlog going up. 
We are in a freeze right now. So let us be clear, you know, the 
Committee has been told that VBA has 760 vacancies. Mr. Murphy, 
you talked about how you are redirecting money to more 
appropriately try to cover but you still have those vacancies. 
And it is our understanding those will not be exempted from the 
hiring ban at this point. When you are looking at the final 
rule establishing eight new presumptive diseases associated 
with exposure to contaminated water at Camp Lejeune, that is 
going in effect March 14th. How are we going to keep up? You 
are going to see intake go up. Obviously we are going to. And 
we have vacancies. Can you talk a little bit about what do you 
expect to happen to the backlog when those cases come online?
    Mr. Murphy. We are overstaffed at this time. So the intent 
right up front six months ago was we are going to hire ahead 
because we always had 1,000 positions vacant. And what happened 
was we authorized the strength out to 100 percent to each 
regional office. An RO would wait for a vacancy, then they 
would start the fill process, four to five months later a 
person would show up and begin training. So what I did is I 
bumped up an additional end strength across the Nation, told 
everybody you can hire up to 105 percent, and they followed the 
normal process which took them to the 100 percent mark, part 
one.
    Part two was at the same time I spent $130 million, real 
round numbers, on overtime. Overtime is very expensive. Why not 
convert some of that to permanent employees and keep the rest 
of it for overtime, and use the overtime money for crises and 
surges that we have? So in addition to the extra five percent, 
we converted 50 percent of the overtime dollars to FTE and put 
the authorization out to the field to hire those individuals. 
Those folks now are working through our challenge process 
today. So again, I am 250 bodies over my authorized end 
strength from the presidential budget for 2017 and we lose 
approximately 40 people a pay period right now. So I can ride 
it out and still be above end strength for the next three 
months plus, depending on how the attrition rate goes before we 
are impacted by not having people on board. Then the next 
measure would be we start moving people out of non-direct labor 
positions into direct labor positions. That is the most 
important part is the delivery of service, not to have an extra 
person at a headquarters. So we do have a hiring freeze in 
place. And we also have a movement freeze in place where we are 
now allowing people to move out of our direct labor positions 
and be promoted into other positions, which leaves me trying to 
figure out how to deliver services.
    Ms. Esty. Thank you. I see my time has expired but I 
appreciate your explanation. Thank you all very much.
    Mr. Bost. General Bergman, you are recognized for five 
minutes.
    Mr. Bergman. Thank you, Mr. Chairman. And it is an honor to 
be with all of you this morning and thank you for all of your 
service, both in uniform and now in a suit. The State of 
Michigan has a very high percentage of veterans comparatively 
speaking, and the first district that I represent has double 
the percentage of veterans as the other districts in Michigan, 
and largely rural, so we have some unique challenges. And as 
far as the questions I am going to ask, I am not going to ask 
person specific. So whoever would choose to respond, please 
feel free. What are the problems with NWQ that delayed its 
implementation?
    Mr. Burke. Thank you, sir, for that question. As with any 
release in VBMS, we go through a rigorous testing process. When 
we initially intended to deploy the national work queue before 
May, we had completed that testing. But testing in a testing 
environment is different than actually putting it in a 
production environment. Testing passed, everything was 
successful. As we went to go into the production environment we 
intended to do so over the course of a weekend. We noticed that 
the actual production job, the job of pulling in claims 
electronically, prioritizing them electronically, and also 
staging the distribution to 56 regional offices, took too long.
    Our goal is to always have claims deposited at a regional 
office and in an employee's queue before they start their day. 
We do not want any idle time. We do not want any employee 
waiting for work to do. As such, it is important that our 
entire distribution job starts at around midnight and needs to 
finish by around 4:00 in the morning. We noticed that the job 
was taking too long and we decided to pause, go back and retool 
and reconfigure until that processing time could be reduced. 
That was the issue, sir, that caused the initial delay, because 
we did not want to put ourselves in a position where employees 
did not have work available to them at the start of their work 
day.
    Mr. Bergman. So in other words, you feel that by the 
testing, the testing that failed, if you will, and what you 
implemented as you saw the timeframe work, so have the problems 
with that been resolved to your satisfaction?
    Mr. Burke. Yes, sir. That actually was resolved and was the 
key feature, if you will, that allowed us to actually 
successfully deploy to all stations in May of `16.
    Mr. Bergman. So a little OJT there?
    Mr. Burke. Yes, sir.
    Mr. Bergman. All right. And OJL, as in on the job learning.
    Mr. Burke. Yes, sir.
    Mr. Bergman. NWQ is fused with the VBMS system. We were 
told that this system needs to be either replaced or updated. 
Does NWQ have the ability to be compatible with new or updated 
benefits management systems going forward?
    Mr. Burke. So what I would say, sir, is when we designed 
and developed and built the national work queue, it was under 
the auspice of VBMS. It is certainly owned and operated as a 
different entity. I have a full team of administrators that 
operate the national work queue. But we do go through the VBMS 
process for any enhancements, any new features, etcetera. And 
so right now we are connected solely to VBMS and we are 
dependent on VBMS right now to operate.
    Mr. Bergman. So is that a yes or no? If VBMS is replaced 
with something, would we start from square one with NWQ again?
    Mr. Burke. I certainly think, sir, that if we were to do 
that we would be dependent on integration, proper integration, 
with a new system. And I am sure as part of our doing that that 
would be incorporated. We would have to integrate NWQ with 
anything if we replaced VBMS.
    Mr. Bergman. Okay. Why did it take one year after NWQ's 
implementation for the VA to impose new employee productivity 
and accuracy standards? Why did it take a year?
    Mr. Murphy. I will start with that one and then I will 
probably have Willie jump in. We went with a partial roll out, 
started the roll out in May timeframe. We did not complete it 
until the summertime. And then we ran it from summer up until 
two months ago and looked at live production data using 100 
percent of the population to develop standards which we 
presented to the union in February, which go live on March 1st. 
So in the past we have always used sampling of a couple of 
people. But this time we used 100 percent of the population 
across the Nation over a period of six months. So arguing or 
discussing or negotiating what individuals can produce is no 
longer an issue in the setting of standards because we are 
using what you actually produced. So all of the discussions we 
have had in years past about what should the number be are 
gone. It is very simply we used a statistical process, we laid 
it out, we used standard deviation, this is the performance 
standard, next step. So it took a little longer. It took us six 
months of live process. But now we have numbers that are 
actually right and based on what our individuals are producing 
on a daily basis.
    Mr. Bergman. Thank you. I see my time is up, Mr. Chairman.
    Mr. Bost. Mr. Walz? Ms. Brownley? Ms. Brownley, you are 
recognized for five minutes.
    Ms. Brownley. Thank you, Mr. Chairman. And I too want to 
add my voice and thank all of you for your service to our 
country and your service to our veterans as well. So I think, 
Mr. Murphy, you in your opening comments talked about there is 
still more work to be done, and there has already been 
discussions on where improvements can be made. Are there other 
areas that we have not discussed so far that you are looking at 
to improve the system?
    Mr. Murphy. I am going to hit this at a very high level and 
then give it to Ron in about 20 seconds. And the answer is we 
are getting so much data out of every little transaction right 
now, we are still trying to figure out how to use some of the 
data. An example of that is what we did with RVSRs and 
performance standards and how we used statistics to lay it out 
and say, wow, look at what is here. Ron runs this every day. He 
sees all these numbers. I spend a lot of time in his office 
digging. He may be able to put a little more clarity on that.
    Mr. Burke. Thank you. Yes, ma'am. A couple of things that 
we are doing right now, we have, while very short-lived in this 
environment, we have started to gather a ton of data that was 
not available before. One of the things that we are really 
keenly focusing on is the reduction of our rework. We now have 
an automated process that allows us to catch anytime an 
employee indicates that a claim has to move backwards in the 
process. To that end we are also able to discern whether that 
backwards movement could have been avoided or whether it was 
unavoidable. This allows us to take a look at improving 
training, improving gaps in policy or procedure, and really 
tailoring our training to meet the trends that we see.
    So one of the biggest things that this environment has 
allowed us to do by the implementation of an automated deferral 
process is to capture the daily data that we did not have 
before. And that really speaks more towards making sure that we 
have the right performance standards, making sure that we have 
the right training tools, making sure that as we create new 
reports for supervisors to use to manage both workload and for 
employee performance that we bring together, get on the same 
page, and actually provide some consistency that was not there 
prior to NWQ.
    Ms. Brownley. Thank you for that. In terms of vacancies, 
Mr. Murphy, did I understand you to say that we are losing, we 
lose approximately 40 employees per pay period?
    Mr. Murphy. That is correct. Prior to the hiring freeze we 
lost between 55 and 61 per period. There was a good percentage 
of those that were moving to other agencies. If other agencies 
are no longer hiring then that number will be reduced down to 
about 40 that would actually leave the Federal government.
    Ms. Brownley. And so are there additional reasons why you 
are losing that many people per pay period? Is it advancement 
or is it they are leaving?
    Mr. Murphy. No, these are, this is not turnover, moving to 
another job. These are people that are leaving the agency. And 
that is actually a very low number. I come from a sector where 
we ran 20 to 25 percent, 28 percent. We typically run in the 
low single digits percentage as an agency. So 40 people with a 
population base of 22,000, that is just normal retirements and 
taking another opportunity someplace else.
    Ms. Brownley. When back in 2013, I think, when we were 
first discussing this transition, and I really do believe that 
this transition has been, is certainly there are plenty of 
indications that it has been successful. And so I want to, you 
know, congratulate you all in that endeavor. Obviously, I 
agree. There is still more work to be done here. But one of the 
things that we talked about was the fact that for those people 
who are doing this processing that what could emerge from this 
system are people who are experts across the country in 
particular type of claim. And perhaps with that expertise that 
that in and of itself would streamline and make the system more 
efficient. Is that happening? Do you see that kind of trend?
    Mr. Murphy. We have the data to give us that kind of trend. 
We have not taken any action on it yet to actually physically 
realign. And the concept you are talking about is let us say 
St. Paul, Minnesota becomes experts at PTSD. So we route PTSD 
cases to that rating board because they are really good at that 
product. We do that at a lower level now with IDES claims, we 
do it with Camp Lejeune contaminated claims, and there are 
several others where we do those in pockets to concentrate low 
density things. But what you are talking about is a center of 
excellence where we would concentrate high volumes of work. We 
have the data to do it now but it is not an action that we have 
taken yet. It is certainly on the table for future 
improvements.
    Ms. Brownley. So I think in this week's Monday morning 
workload report, the Los Angeles regional office, which serves 
my veterans, the average days pending is 105 while it is only 
85 days in Fargo, North Dakota. I presume that VBA is tracking 
these numbers. But are you adding more people and resources in 
areas where you know they are going to, and you can anticipate 
that there are going to be more claims?
    Mr. Clark. Yes ma'am, we are. And I recall going back I 
oversaw the western region, of which L.A. was one of those 
offices, and there was a point in time that the average claim 
was well over six months.
    Ms. Brownley. Yes.
    Mr. Clark. So one of the things that we did previously, we 
would pick cases up physically and move them via UPS or we 
would just shift cases and now with NWQ this is why we are able 
to do things electronically. So on the aggregate our average 
days pending and average days to complete have lowered 
significantly. We do keep track of all of our claims that are 
pending. And one of the great things about NWQ is we can just 
target or send that work to places where we have capacity. So 
sometimes proportionately maybe certain claims or certain 
amount of radiation claims or what have you, may be pending at 
a particular RO. But on the aggregate we send cases where we 
have a need to send work and where there is capacity. That is 
where it goes. And it goes everyday at 4:00 a.m. Mr. Burke and 
his team of folks moves that work around.
    Ms. Brownley. Thank you very much. I apologize. I yield 
back, Mr. Chairman.
    Mr. Bost. Thank you, Ms. Brownley. And Mr. Coffman is 
recognized for five minutes.
    Mr. Coffman. Thank you, Mr. Chairman. And Mr. Murphy, out 
of the claims backlog what percentage would you just say are 
PTSD only?
    Mr. Murphy. I would have to go back and get you a detailed 
number on that one. I would not even want to venture a guess. 
But what I can give you some idea--
    Mr. Coffman. Is it the largest, let me just ask you this--
    Mr. Murphy [continued]. No sir--
    Mr. Coffman [continued]. --is it the largest right now in 
terms of pending claims?
    Mr. Murphy. It would be, in isolation no, but in 
combination with others, yes.
    Mr. Coffman. Okay. And then what are some of the, I am 
concerned that we are not focused enough on our combat veterans 
in terms of the claims process. What amount, can you give, and 
again just a very rough break down, of what I would call age 
related issues in terms of the claims process? Whether it is 
hearing loss that is not necessarily associated in terms of 
being, you know, around explosions or around aviation assets 
and things like that?
    Mr. Murphy. I can tell you what we have in terms of the top 
five to seven conditions, the ones we see most frequently. So 
PTSD is very high on the list. Traumatic Brain Injury is fairly 
high on the list. But even much more common than that is 
tinnitus, hearing loss, and then musculoskeletal injuries for 
knees, ankles, back. Those are the most frequently occurring 
conditions.
    Mr. Coffman. Okay. What, and how well, tell me about your 
shift to a more electronic system? And I know that is somewhat 
controversial. I think that some of the VSOs have fought to 
retain a paper system because it is simply easier for some of 
the veterans that are not sophisticated in terms of electronic 
communications to be able to utilize. But where are we at in 
that whole process?
    Mr. Murphy. We do not work cases in paper any longer. There 
is just, there is a very small fraction of a percentage that is 
actually existing in paper still. It is all a paperless 
environment. In fact, a week ago we completely unpapered 
Philadelphia. There is no paper left in Philadelphia. We have a 
team in St. Petersburg right now and in a couple of weeks there 
will be no paper left in that office. And then we are moving 
across the Nation. At the end of the fiscal year we will have 
most of them done. By the end of next fiscal year we will be 
completely done with paper in all regional offices.
    Mr. Coffman. And am I clear you are down to about 18,000, 
is it 18,000 in the claims backlog? What is the claims backlog 
now?
    Mr. Murphy. The claims backlog as of this morning is give 
or take 100 or 200 claims 99,000.
    Mr. Coffman. Oh, how much?
    Mr. Murphy. 99,000.
    Mr. Coffman. 99,000?
    Mr. Murphy. Yes, sir.
    Mr. Coffman. Okay. And tell me where you want to be a year 
from now?
    Mr. Murphy. I would like it to be as close to zero as we 
can get.
    Mr. Coffman. Okay.
    Mr. Murphy. I mean, that is probably, I do not know, 
25,000, 30,000, 40,000 depending on the work flow. There are 
some cases that are never going to be under 125 days because 
you are just shortchanging the veteran to go away and do that. 
Radiation claims, long research history--
    Mr. Coffman. Sure.
    Mr. Murphy [continued]. --and exposures, etcetera. And it 
is just an injustice to the veteran to force it into 125-day 
process. So to say we are going to get to zero, that is just 
not going to happen. It is not the right thing to do. But it is 
certainly not, it can be smaller. Any system you have got, no 
matter how good it is, can get better, ours included.
    Mr. Coffman. Have we just been pushing these claims to the 
appeals process? In other words, that we are just kicking them 
upstairs by trying to expedite and shrink the volume in terms 
of the claims backlog?
    Mr. Murphy. No, sir. That just creates more problems for me 
to deal with later. We actually have stopped the growth in 
inventory in the appeals process. We were on an eight-year 
upward slog, steady growth. In the last three months we have 
actually turned it and started reducing in the appeals process. 
And the reason for that is, five months ago I locked in the 
appeals people and just made them an isolated, nobody could 
work on anything other than appeals if you were assigned to 
appeals. So that dedicated workforce, 1,495 people, work only 
appeals on their prime time, overtime, any time that they are 
working. And then that focus, along with just a little bit 
extra pressure and a few modifications and changing process, 
has resulted in us flattening and starting to bring down the 
overall number of appeals.
    Now inside of that the number of appeals sitting at the 
Board of Veterans Appeals is growing because we are producing 
them faster and pushing them across to the Board of Veterans 
Appeals which leads us into the legislation pending in Congress 
now about appeals reform.
    Mr. Coffman. Okay. Mr. Chairman, I yield back.
    Mr. Bost. Mr. Walz, you are recognized.
    Mr. Walz. Thank you, Mr. Chairman. I appreciate it. And Mr. 
Murphy, a special thank you to you. I know you have been there 
throughout this whole process, as the number of claims have 
reached its peak, and as we addressed it. You adjusted fire and 
fired for effect and reduced them as we were hoping would 
happen. I for one am grateful that you chose not to take your 
talents and go elsewhere where you could probably be paid more 
and have less headaches. I do appreciate that.
    Mr. Murphy. It is a work of passion.
    Mr. Walz. It is a passion and it has been apparent. And I 
think that is what our veterans deserve. It is what they 
demand. And I think it is important for us because I have 
watched you come here on numerous occasions through this but 
always with a goal on that end of working together. So I am 
appreciative of that.
    Just a couple of things, and this is coming from our VSOs 
who I know you are a good partner with. And I truly know and I 
would like to say a special thank you to your employees, too. I 
literally watched those folks out at the St. Paul RO burn the 
midnight oil during numerous occasions during the backlog and 
they brokered in a lot to them. I agree with you on this. We 
were paying a lot of money for overtime that needed to be done 
but I think to smooth this and keep things going that does make 
more sense. So when we talk about accountability, we talk about 
hiring freezes, we do need to talk about in the long run hiring 
and retaining really good people can not only do the right 
thing for veterans, it can save us money in the long run. So I 
appreciate you on that.
    Just a couple. Our VSOs expressed concerns that their rep 
cannot find that contact information when they need to reach 
out to a VA employee in the RO to correct an error. How does 
that happen? Or how do you respond to them when they say that?
    Mr. Murphy. I am going to give the details to Mr. Burke on 
that one.
    Mr. Walz. Okay.
    Mr. Burke. Sir, thank you. We have tried to ensure no 
degradation of service or relationship between our VSOs at the 
local regional office and the staff there. To that end we are 
all learning from this process. It has posed some challenges. 
We are adjusting fire, as you referenced. But we have 
designated personnel in each regional office, the same regional 
office that the VSO resides in, that have been put on kind of 
an ancillary role, if you will, that they can serve as a direct 
liaison between that VSO and that office. No matter where the 
claim is, they have a peer that they reach out to, to kind of 
facilitate those discussions. Admittedly it is a process that 
we need to improve on. I think we are really, really good at it 
in some areas, and in some we get a reminder from our partners 
once in a while that it may not be working as intended. So we 
want to make sure that there is that local flavor, both the 
high technology, high touch type thing that was referenced 
earlier today. But certainly an area that we will continue to 
improve on.
    Mr. Walz. No, I appreciate that. And I certainly appreciate 
the spirit that you are approaching it. These are your partners 
and if they are good at it, they know. And that is just a force 
multiplier for all of us. So I am grateful for that.
    And I will just end with one, and you brought it up, Mr. 
Murphy, with Camp Lejeune and we are coming up on the 14th. 
Having, and I said this in hearings at the time, I continue to 
say it. A lot of the backlog came out of the Nehmer claims 
which I am glad that it was approved, that we were there. And I 
feel like I added a lot of work for you by pushing that through 
and when the Secretary added it, I understand that. And I do 
not think we gave you the necessary up front resources once the 
Nehmer claims went through that that did cause that. That is 
not an excuse, but it is certainly a reason. Are we going to be 
okay that we are not going to see that? I know the numbers are 
probably far less but not certain of that, and how that will be 
handled?
    Mr. Murphy. Are we talking specifically about the Camp 
Lejeune cases?
    Mr. Walz. Yes, on the 14th, am I right, on March 14th--
    Mr. Murphy. The date is coming up here shortly. The 
difference, what got us bogged down last time was the 
uniqueness of the Nehmer claim and the fact that you had to go 
back and do a page one review literally decades old. That does 
not apply in this case. This is claims that have filed since we 
did the notice, plus, so it is point forward. It is a 
completely different type of work. And the fact that we put the 
presumptive in there, yes, it is certainly going to bring more 
volume in the door. But the presumptive helps speed the process 
up because--
    Mr. Walz. Are you going to funnel those through one RO? Or 
are you going to just kind of handle it in the normal process?
    Mr. Murphy. Ideally, we want to keep them in the one RO 
because we have that center of excellence we were talking about 
just a moment ago. If they cannot handle the volume we are 
going to have to train another and expand it. So we will have 
to keep a very close eye on that.
    Mr. Walz. So, but you are not, you are concerned, you are 
focusing on it, you are there, you are ready to adjust to it. 
But you do not anticipate anything near the disruption that the 
Nehmer claims caused?
    Mr. Murphy. No, nothing at all like that. The Nehmer claim 
was a tidal wave and this is going to be a real small one by 
comparison.
    Mr. Walz. Great. Well, again, I am grateful. I appreciate 
you being here as always. And it is about service to those 
veterans and it is clear, as I said, of watching you over the 
last half decade or so that you have done what you were 
expected to do. I yield back.
    Mr. Murphy. Thank you, sir.
    Mr. Bost. We want to thank you for your testimony. We 
appreciate you being here today. If we have any follow up 
questions we will be sending those your way and thank you for 
being here and for what you do. And hopefully we can improve on 
this but we need to move on to our next panel.
    Mr. Murphy. Thank you, sir.
    Mr. Bost. If that is all right? And if the second panel 
then will come to the witness table?
    I want to say welcome to everyone and thank you for coming 
today. Our second panel includes Mr. Zachary Hearn, the 
Department Director of Claims of the Veterans Affairs and 
Rehabilitation Division of the American Legion; Ms. Kelsey 
Yoon, the Director of Veterans Benefits of the Vietnam Veterans 
of America; and Mr. Ryan Gallucci, the Duty Director of the 
National Veterans Services for the Veterans of Foreign Wars. 
And first we will hear from Mr. Hearn of the American Legion. 
And Mr. Hearn, you are now recognized for five minutes.

                   STATEMENT OF ZACHARY HEARN

    Mr. Hearn. Thank you. American Legion Past National 
Commander Ronald Conley initiated a series of visits to VA 
facilities in 2003. After these visits the American Legion 
declared VA a System Worth Saving. Over 13 years have passed 
since that declaration but this truth remains. The American 
Legion knows the VA is a system worth saving.
    Good morning Chairman Bost, Ranking Member Esty, and 
Members of the Subcommittee. On behalf of the National 
Commander Charles E. Schmidt and the 2.2 million members of the 
American Legion, we welcome this opportunity to speak with you 
regarding the impact of the national work queue upon the 
adjudication of claims. VA Secretary David Shulkin echoed the 
American Legion's sentiments regarding the value and place VA 
has with our Nation's veterans during his confirmation hearing. 
We fervently believe VA is a system worth saving. We need VA to 
listen to us. We need VA to work with us to ensure management's 
success.
    The American Legion has over 3,200 accredited 
representatives with representatives in each of VA's regional 
offices. This level of assistance and expertise by these 
individuals led the American Legion to represent over 804,000 
veterans in the last fiscal year. Many view or representatives 
as advocates for veterans. The fact is we could be a fleet of 
advocates for VA. But they not only need to listen to us but 
also implement what we are asking.
    NWQ and Veterans Benefits Management System are 
inextricably intertwined. NWQ is not viable without a properly 
function VBMS that allows for the fullest advocacy efforts by 
veterans service officers. VA began briefing the American 
Legion in 2015 regarding NWQ. It was designed to maximize its 
workforce and adjudicate claims in a more expeditious manner 
through routing cases to VA regional offices based upon 
availability. The American Legion recognized the potential for 
the program, however concerns existed and continue to exist 
regarding its implementation and execution.
    The advocacy and adjudication of claims has historically 
been a local venture. A veteran residing in a given area of 
jurisdiction could reasonably expect the claim to be developed 
and adjudicated at the local VA regional office. Much of claims 
advocacy is built on internal relationships with regional 
offices and NWQ would sever some of those relationships. VA 
advised that the local regional office would serve as the first 
filter where the claims would be adjudicated. However, in the 
case of some regional offices this has proven untrue. The St. 
Paul regional office has reduced the adjudication of claims of 
veterans from Minnesota from 99 percent to 30 percent over the 
course of two years.
    A major complaint received by our service officers is the 
fact that VBMS does not have the ability to alert local 
representatives of claims development. VA has established a 48-
hour window to review claims. However, VA has occasionally 
removed a case prior to the close of the allotted period of 
time. The American Legion hosts a department service officer 
school biannually and during the last school in July, 2016 
service officers working in regional offices were asked to 
raise their hands. They were asked to lower their hands if they 
had come across a case that had been removed from adjudication 
review prior to the 48-hour window. Not one hand was raised. 
These concerns have been raised to VA, yet the problem 
continues to linger.
    Even if the local representative where the claim was 
adjudicated was notified it would be of little assistance. The 
local representative is not familiar with the veteran and the 
associated claim. Moreover many of our service officers are 
employed by state agencies funded by local tax dollars. Those 
employees are working to assist veterans in their given state. 
It is unfair for them to also assist veterans residing outside 
of their jurisdiction.
    The American Legion regularly conducts quality review 
visits. Last year we met with VA employees to discuss the 
impact of NWQ. Some welcomed NWQ, however others had concerns. 
These concerns listed from line employees to senior leadership. 
The VA employees noted that a disconnect exists. A developer at 
one location may not develop the claim to the degree required 
at another location, causing added delays in the process. 
Another complaint involved NWQ pulling back cases into the 
virtual queue and redistributing them after a substantial 
amount of development occurred at the original regional office. 
Despite completing the bulk of the work the original regional 
office does not receive the credit. One senior leader stated 
that it is disheartening to have an employee complete the bulk 
of the work while another location gets the credit. In a 
production environment this could hurt morale.
    VA has taken great strides in reducing its backlog of 
claims from its peak in March of 2013. The implementation of 
fully developed claims and VBMS have allowed VA to enter the 
21st Century. VA needs to truly believe that veterans service 
organization are stakeholders and a fleet of advocates that 
could be used to improve their product. They simply need to 
listen.
    Chairman Bost, Ranking Member Esty, again on behalf of the 
Nation's largest veterans service organization we thank you for 
the opportunity to speak about this issue this morning and I 
will be happy to answer any questions that you may have. Thank 
you.

    [The prepared statement of Zachary Hearn appears in the 
Appendix]

    Mr. Bost. Thank you, Mr. Hearn. And Mr. Gallucci, you are 
recognized for five minutes.

                   STATEMENT OF RYAN GALLUCCI

    Mr. Gallucci. Thank you. Chairman Bost, Ranking Member 
Esty, and Members of the Subcommittee, on behalf of the 1.7 
million members of the VFW and our Auxiliary, I want to thank 
you for the opportunity to testify on this issue. I know in my 
written testimony the situation with national work queue looks 
dire. But I want to clarify that the VFW supports NWQ and we 
believe that this is how VA can maximize efficiency using every 
resource at its disposal to deliver consistent, quality, 
accurate, and timely benefits to veterans.
    NWQ shows significant promise in meeting this objective. 
Our concerns rest with the final step in the process for 
veterans represented by accredited VSOs like the VFW. 
Unfortunately, this issue is so complex that we saw prudent to 
articulate every way that we believe this affects VA's ability 
to deliver a quality product to veterans and our ability as 
advocates to provide quality customer service to our veteran 
clients. By a decades old policy, VA allows VSOs 48 hours to 
perform a final quality review on proposed rating decisions 
allowing us to identify any potential errors and get them 
corrected before the decision is sent to the veteran. VSOs see 
this as a chance to ensure VA gets it right the first time.
    Based on VFW's analysis, we find errors in about one out of 
every ten claims that we process, and we can usually work with 
VA to fix them before the veteran ever knows. This is not only 
a positive for the veterans we serve but also a benefit to VA. 
On a grand scale, if VSOs can perform quality reviews on all 
ratings and explain the context of the decision to our 
veterans, we cut down on appeals and build confidence in the VA 
system. On a local scale, VSOs learn to become stronger 
advocates, VA staff learn to be more meticulous raters, and 
veterans receive consistent, accurate, and timely benefit 
decisions.
    While this policy has been supported by VA management, the 
VFW has seen examples where personnel in regional offices, 
potentially reacting to pressures on productivity, will 
finalize rating decisions before the 48 hours expire. We have 
also seen NWQ pull ratings out of regional offices while they 
are still in the 48 hours, meaning our representatives lost 
optics on them while the clock ticks. We have also seen 
brokered work stations immediately finalize rating decisions 
for work under their jurisdiction if no VSO representative is 
present in the office in accordance with VA's Manual M21-1. 
This makes it impossible for the VSO representatives who 
originated claims to track their work regardless of the 
filtering workarounds offered by VA through VBMS. We appreciate 
that VA has offered this work around, like zip code filtering, 
and a potential new field to filter by station of origination. 
But as we articulated in our written remarks, these workarounds 
do not solve the overall problem.
    Our objective as accredited VSOs is to serve as the public 
facing advocate to help veterans navigate the complex VA 
benefit system. As such we align our resources to either the 
needs of the community as we see in North Dakota, or the 
special mission of the VA regional office like we see in 
Winston-Salem and Salt Lake City with the pre-discharge claims 
program. When VFW takes power of attorney for a veteran client 
the veteran is placing his or her trust in the VFW to serve as 
a quality advocate in not just filing for VA benefits but also 
ensuring any awarded benefit is accurate. Our representatives 
in the field must build trust and credibility with not only 
their clients but also their local VA colleagues to properly 
advocate for veterans. When our advocates do not have the 
opportunity to review the work for their clients, everybody 
suffers. At first it may look good that VA was able to send the 
rating decision to the veteran more quickly, but this is no 
good if the decision is inaccurate. As our representative in 
North Dakota said, we have lost local advocacy.
    The VFW's ask on NWQ is really three-fold. First, return 
proposed rating decisions to the station of origination so that 
the VSO representative who is most familiar with the claim can 
conduct a proper review. Second, lock the 48-hour clock in VBMS 
so that VA staff cannot pull back the rating decision before 
the VSO clicks reviewed or the 48 hours lapses. Third, allow 
VSOs to mark proposed ratings as queried in VBMS so that VA can 
track potential errors and hold staff accountable for 
addressing any potential errors. The VFW believes that the 
infrastructure already exists to execute these three steps in 
NWQ and is a more simple solution than building a new filtering 
option in VBMS.
    The VFW and our partner VSOs have asked for these solutions 
since NWQ was first proposed. Unfortunately, we worry that 
these requests have been pushed aside in favor of VA's internal 
priorities. Now we understand that VA has its objectives to 
improve its work product, but our purpose today is to 
demonstrate to this Subcommittee and to VA that the VSO's 
priorities are also VA's priorities. The VFW believes in NWQ 
and we want to work with VA and the Subcommittee to make this 
successful. If VA can execute these deliverables, we believe 
that we will have advanced in our mission of providing timely, 
quality, and consistent benefits to our veterans.
    Chairman Bost, Ranking Member Esty, this concludes my 
testimony and I am happy to answer any questions you may have.

    [The prepared statement of Ryan Gallucci appears in the 
Appendix]

    Mr. Bost. Thank you, Mr. Gallucci. And Ms. Yoon, we want to 
recognize you. Just for purposes Boston--Bost-- that is what, 
the name is--no, that is okay. Everybody does it. I am just 
going to go ahead and get it so everyone knows. Ms. Yoon?

                    STATEMENT OF KELSEY YOON

    Ms. Yoon. Thank you. Good morning, Chairman Bost, Ranking 
Member Esty, and other representatives of this distinguished 
Subcommittee. Thank you for inviting VVA to testify today about 
the national work queue's impact on claims processing.
    VVA is supportive of using technology to create a better 
claims system, however not at the expense of accuracy, 
transparency, or a pro-veteran claims process. Currently it is 
easier to track a FedEx package than a VA claim. VA has 
sidelined VSOs during the development and implementation of the 
national work queue by not prioritizing the crucial role of 
service representatives. Consequently the pro-veteran claims 
process has suffered to the detriment of the veteran. VVA is 
left concluding that VA's only interest is to use the national 
work queue as a tool to eliminate the backlog and nothing else.
    VVA strongly opposes the expansion of the national work 
queue to appeals and non-rating claims until at a minimum the 
three recommendations we put forth in our written statement are 
fully implemented. I would like to take this time to briefly 
discuss three barriers to the claims process that VVA currently 
experiences as a direct result of the national work queue.
    First VSOs are unable to track accurately its claims that 
need review before a final decision is issued in VBMS. For 
example, if our service officer files a claim in Seattle, 
Washington that claim could be kicked to Atlanta. That service 
officer is unable to track that claim to its rating decision 
being issued. VVA believes that when our service officers are 
unable to review the claims they filed VA is depriving veterans 
of their right to competent representation.
    For more than two years VVA has stressed the importance of 
a station of origin search filter in VBMS but VA continues to 
give this request zero priority. Adding a station of origin 
search feature will permit service officers who filed the claim 
to be able to competently assist their veterans through the 
entire claims process regardless of if the claim is adjudicated 
in another station.
    The second barrier, assuming the VSO is able to identify 
which RO the claim has been sent to, VA has yet to provide 
accurate contact information for each station. Often the email 
addresses provided are incorrect or outdated, leaving the VSOs 
unsure of who to contact at the out of state station. This is 
extremely important when we are trying to contact during the 
48-hour review period.
    And finally the third barrier, even if we have the correct 
contact information for the station, it is difficult to receive 
at timely response, if we get one at all. Since implementation 
of the national work queue service representatives are further 
distanced from the claims process and in some instances blocked 
out entirely. Consequently VVA has been forced to appeal more 
claims than previously, which adds to the backlog. All of these 
problems did not happen pre-national work queue because service 
representatives developed working relationships with VA raters 
at their home station and all claims were adjudicated in the 
same state where the veteran resides.
    The veterans benefits claims process is a unique 
adjudicatory system. It seeks to be non-adversarial and pro-
veteran. VVA urges VA to prioritize the recommendations made in 
our written statement so that veterans and their 
representatives are again included in the claims process.
    Thank you for this opportunity for VVA to share our 
thoughts on this issue and I am happy to answer any questions.

    [The prepared statement of Kelsey Yoon appears in the 
Appendix]

    Mr. Bost. Thank you. And I will go with the first five 
minutes of questioning. Mr. Hearn, our number of backlog claims 
when we started this project was about 76,000, now it is about 
101,000, or thereabouts. Do you think the NWQ actually has 
improved the situation or not?
    Mr. Hearn. And the American Legion has noted that there has 
been an increase in the backlog of claims during this period of 
time. As far as if it contributes to the backlog, I could not 
say. But it certainly has not been, you know, it certainly has 
not decreased it as the numbers would bear.
    Mr. Bost. What suggestions would you have to improve this?
    Mr. Hearn. I think, again, a lot of it when we go through 
and we look at how these claims are being adjudicated or they 
are being processed in the system, there is a lot of back and 
forth that is going on between the VSR and the raters. In one 
location if you take a, let us just say you take a poor 
performing regional office and that developer meets, you know, 
cuts the mustard as far as they are concerned there. Then it 
goes to a rater at a higher performing area where they would 
not accept that as being the necessarily development. So then 
the rater ends up kicking it back. And so here this starts 
slowing this process down. Had this been in the same office the 
person could have walked across the service center and said, 
hey, look, you need to fix this? We need to schedule an exam. 
We need to do this level of development. So I think that some 
of this, some of these issues are probably contributing to a 
certain extent.
    Mr. Bost. Okay. Then that kind of leads to this question. 
Right now I just asked you specifically what input you would 
have through your organization. So I am going to ask this of 
all three members. Has the VA asked each one of you what they 
could do to improve this, and what has been the response?
    Mr. Hearn. They have asked. We have offered solutions. And 
we continue to ask for those same, you know, those same asks 
keep getting asked over and over and over again over the last 
six months to a year, I would say.
    Mr. Bost. Mr. Gallucci?
    Mr. Gallucci. So thank you, Mr. Chairman. I do want to 
reiterate what Mr. Hearn said. Because that was really an 
overarching theme in our testimony as well. Is that we 
persistently make requests of VA on things that they need to 
prioritize in changing their business processes, but we do not 
know where those stand on their list of overall priorities. 
What we are trying to convey to VA is that our priorities are 
not just the priorities of VVA, the American Legion, and VFW. 
They are the priorities of the veterans that we serve. And we 
provide that customer facing advocacy. These men and women walk 
into our offices, call our offices, they develop interpersonal 
relationships with our representatives. And so we need to be 
able to provide that personal advocacy for them.
    It also becomes a problem, not to get on too much of a 
tangent, but where these different processes happen in 
different offices we have heard anecdotally that sometimes 
there is duplicate work happening. So they may order an exam 
that was not necessarily needed, or as Mr. Hearn said it will 
get kicked back into the process someplace that it did not need 
to be. So I think my recommendations would likely echo the 
American Legion's in improving the business flow in those 
regional offices. It is good to hear that VA wants about 50 
percent of the work to stay at the original office of 
jurisdiction. But again, I do not know if that is going to 
solve their problem. Automation has the potential to improve 
this process.
    Mr. Bost. Ms. Yoon?
    Ms. Yoon. Yes, I would also concur with Mr. Hearn and Mr. 
Gallucci. VVA has continually, as I stated earlier, for years 
been working with the VA to try to explain what we need in 
order to assist the claims process. And like I mentioned,
    because of our inability to properly track and assist 
claims with the original service officer who worked on it, it 
forces us to appeal claims that we would not have had to appeal 
pre-national work queue, thereby adding to the backlog. So I 
would just emphasize that, again, as Mr. Gallucci said, we are 
all on the same team. We are trying to do the same thing and 
achieve a final and just decision at the lowest level possible. 
And the recommendations that we put forth seek to achieve that.
    Mr. Bost. Well let me tell you, I think this Committee is 
on the same team with you as well. In your original testimony 
you actually brought up the fact that quite often the 
communications come with the wrong email address?
    Ms. Yoon. Yes. So was earlier stated, the VA has provided a 
contact person or a generic mailbox at each RO. So if we do not 
know who to contact at that RO, if we do not know the rater, we 
are instructed to email this email address. It is either a 
personal email address, a name, someone's name at va.gov, or it 
is a corporate email box. Those email addresses are often wrong 
and we will send the email to the person we are supposed to 
contact and the response, if we get a response which is common 
to not get a response, you are contacting the wrong person, I 
do not do this. So the request that we have made in our written 
statement is that VA publish on its website an updated list. We 
certainly understand that there is turnover and the person of 
contact should switch. But they need to be able to provide that 
realtime updated to service organizations so we know who to 
contact at that point.
    Mr. Bost. Thank you. I would turn it over to the Ranking 
Member.
    Ms. Esty. Thank you, Mr. Chairman. And I take it, I think 
we are all on the same page and I think it is going to be up to 
us in Congress to prioritize these issues to better serve 
veterans. You know, part of what we have done now there has 
been a lot of focus on backlog so the VA is focusing on 
backlog. Well if we want these quality measures and 
transparency and accountability in place, we need to prioritize 
that and we need to be pushing VA. And that is why we are 
thanking you for your partnership with us in ensuring that that 
happens. And again, I have no doubt the VA wants this too. But 
if it is not prioritized from somebody who can assist or not 
and shine some light or not, it may not happen.
    Is a 50 percent goal enough? You know, we heard from Mr. 
Murphy that their goal is now to return 50 percent, or leave 50 
percent in the RO. Any thoughts from the three of you on 
whether we think that is an appropriate goal?
    Mr. Gallucci. First of all, thank you, Ranking Member Esty 
for that question. And I have some thoughts on that. You may 
have seen in my written testimony that in talking about some of 
these solutions to the VFW they really just seem like work 
around. I mean, an objective to have 50 percent of the work in 
the station of origination sounds good. It is better than 30 
percent, do not get me wrong. Having a station of origination 
work filter in VBMS is also better. But I do not think it is a 
100 percent solution for some of the reasons that I pointed out 
before.
    The manual allows VA to immediately promulgate decisions if 
we have no VSO representative in that office. And just for a 
little bit of background, the way that our resources are 
aligned at the VFW sometimes we do have turnover in those 
offices. The example that I had in my written testimony was a 
regional office that had a vacancy at the moment. We out of our 
headquarters were tracking a claimant that we were working with 
in the hopes of reviewing that rating decision when it was 
posted for the 48-hour review period. That 48-hour review 
period never happened because that regional office was 
immediately promulgating decisions. So even if we had the 
station of origination filter, it would not have helped us in 
the situation with that veteran. And what is interesting about 
this specific case is that VA failed to evaluate one of the 
claimed conditions on the claim and it resulted in an 
additional eight-month ordeal for that veteran and for the VFW 
to try to resolve that issue. So the SOO filter to us, the 50 
percent station of origination work, does not really solve the 
problem. That is why I mean, really, our testimony was more of 
a wish list. If we had an optimal situation what we would want 
is to return it to the SOO, freeze the clock so they cannot 
pull it back into the national work queue, and then allow us to 
mark ratings as queried in VBMS as opposed to just reviewed or 
lapsed.
    Ms. Esty. Thank you. That is really helpful. And we have 
had some of those cases in my office. And I am thinking we 
managed to crack the code in immigration cases, a coding system 
that they used that allowed us to actually track, Ms. Yoon, as 
you mentioned, who is handling the case, how has it been coded. 
And I think that might be something we want to explore in more 
detail. Could we do better coding so you would know who was in 
charge if it gets sent someplace else? So if that person is no 
longer there, you would be able to go and look at that RO site 
and see, wait a minute, 132 is not there. So we are going to 
have to find out who is now taking over those cases. So it 
seems to me that the technology ought to be able to offer us 
that transparency and accountability. But we may need to push 
VA to say you need to prioritize encoding this in a way that 
allows us to actually know who we contact and get realtime 
information. So I do not know if you have done any work on 
that. But maybe, Mr. Chairman, we could look at utilizing 
exactly this technology to say, okay, if we are going to use it 
let us use it for the benefit of veterans. Not just reduce the 
backlog, but be able to still have that accountability and that 
touch. So as we move forward I would welcome your thoughts on 
whether we can use the technology to help solve this problem.
    Mr. Gallucci. Ranking Member Esty, if you do not mind I 
would like to follow up on that. Because there was another 
point about the list of points of contact that Kelsey made in 
the regional offices. This becomes problematic because it takes 
reporting of errors outside of that digital environment. So 
VBMS is a digital claims management environment, how VA is 
tracking all of their work. And Mr. Murphy articulated that 
they have been able to glean so much data from there that they 
have been able to identify break downs in the business process 
and hold individual employees accountable. For a rating review 
if we find errors there is no such opportunity. By having to 
send a separate email to a random VA staffer or a corporate 
inbox, there is not accountability for reporting those errors. 
And then when we click either reviewed or let the 48 hours 
lapse so it would say expired there is then no accountability 
on the back end for VSOs that, hey look, we found an error. It 
was not addressed within a timely manner. So that is one of the 
reasons we are asking to mark them as queried in VBMS. Thank 
you.
    Ms. Esty. That would be great if we could follow up and 
figure out how to embed that. I think that is a really 
important point and if we are getting incomplete data, I will 
not say inaccurate, incomplete data about the error rate, that 
is really important that we figure out how to code that. And I 
think we should continue on with that. Thank you very much.
    Mr. Bost. General Bergman?
    Mr. Bergman. First of all, thanks to all of you for all you 
do for the veterans. The veterans service organizations vary in 
their scope, vary in some of the populations that they serve. I 
am hoping for all of you that you are working very hard to 
encourage those veterans to, whether they join the American 
Legion, the VFW, the Vietnam Veterans of America, we need to 
know what is going on amongst the youngsters, if you will, that 
have served so honorably.
    To all of you, the VA has claimed that the NWQ would 
improve on rating consistency and accuracy. From the 
perspective of you, the VSOs, have you noticed improvement in 
these areas?
    Mr. Hearn. The American Legion conducts quality review 
visits every year. We just did return from San Juan last week. 
And to their credit, to San Juan's credit, they are vastly 
improved from where they were 18 to 24 months ago. However, I 
would still contend, and the American Legion has historically 
differed in what the definition of error is with VA, and a 
static appellate rate or even a declining appellate rate is 
just strictly that. That does not mean that your quality is 
better. It just means more or less people have appealed.
    Typically 20 to 30 percent error rate is what we see. And 
what we determine as error rate is that there was something 
done wrong in the development process, not just strictly a yes 
or no, grant or denial of the benefits. So I would not say, it 
certainly is not the panacea to VA's problems as far as the 
error rate is concerned.
    Mr. Gallucci. General Bergman, thank you for that question. 
I think it is tough to draw a conclusion at this point. 
National work queue is a very new business process, which is 
one of the reasons we wanted to get out in front of this and 
really appreciate this opportunity to address the Subcommittee 
on this issue today. Is because from the VFW's perspective we 
think that moving work efficiently in a digital space around VA 
has potential to improve accuracy. I do not think we are there 
yet. Based on our own review of rating decisions we find about 
one in ten have an error. That has been fairly consistent, but 
a few months ago we were almost getting up closer to two in ten 
where we were identifying errors.
    Whether that is because of national work queue it is tough 
to say because looking at VA's self-reported data on claims 
based accuracy that is a number that has also been decreasing 
over the past few years. But when they break down claims based 
accuracy it also is directly correlated to the number of issues 
that a veteran claims. So one to two issues per claim are more 
likely to be accurate than if you have seven to 12 issues in 
that claim. And that becomes a problem because veterans are 
claiming more issues as they become more aware of the benefits 
to which they are entitled. I think at least from the VFW's 
perspective it is too soon to tell. But one of our objectives 
here today is to get in front of it and make sure that VA can 
provide us with the tools we need to hold them accountable for 
any errors and fix them before they go out the door.
    Ms. Yoon. Yes, I do not have too much to add. I concur with 
both statements already made. I would just emphasize that I do 
agree that it is too early to determine whether it is helping. 
I do agree that there is potential with the additional data 
that we can get from the national work queue. However, I would 
also emphasize that if we continue along the pathway that we 
are without including the VSOs into the process of the claims 
process, then it could potentially have very negative impacts 
on the accuracy of decisions.
    Mr. Bergman. Thank you. Mr. Hearn, how do you feel VA 
handled the rollout of NWQ?
    Mr. Hearn. It is kind of interesting because when VA was 
testifying the statement had been made that they are just now 
hearing that cases are not being adjudicated at the local level 
as much as the VSOs would like. But when it was rolled out we 
were initially told that essentially the right of first refusal 
was the local regional office. When you drop from 90-plus 
percent down to 30 percent in Minnesota, that is not even 
hitting a majority. And so that has been a big problem with us. 
And it is not only that but it is also dealing with the issues 
of claims development, not getting our mail, not getting, I 
mean that is the mantra we are hearing from our service 
officers is we want our mail back. In other words, if something 
happens along the claims process as far as development is 
concerned unless the VSO or the service organization is 
specifically putting that veteran's claim number in there is no 
way for the veteran or the accredited representative to know. 
So we need this type of information as well.
    Mr. Bergman. Thank you.
    Mr. Bost. Ms. Brownley?
    Ms. Brownley. Thank you, Mr. Chairman. And thank you all 
for your testimony. It seems to me that this, you know, a 
pretty simple problem to resolve and there should be ways in 
which it can be resolved. And you know, I would just ask the 
Chairman and the Ranking Member if, you know, we do not have 
the VA here now, and so we cannot ask them that question. But 
we need to ask the question, you know, when are you going to 
take these recommendations and when are you going to have a 
response to them? We believe it is a priority and we want to 
make it a priority for you. And when will that happen and when 
can they report back to us on it to make sure that it does 
indeed happen?
    I mean, it is, you know, within the VA sent out a fact 
sheet, you know, when this process was going to be 
incorporated. And they made a strong commitment that the 
relationship between VSOs and the RO managers will not change 
as a result of this new process, NWQ. Clearly you are making it 
very clear to all of us that that is not the case. So 
timeliness of these benefit claims are clearly important. But 
the quality of those claims and the role that you play and the 
relationship to the veteran at home is equally as important. So 
I hope that we can clear this up sooner rather than later.
    I just wanted to ask do the, can the veterans check the 
status of their claims through the e-Benefit accounts?
    Mr. Hearn. Yes, they can. But it is not like Domino's where 
you know for certain they are putting the cheese on the pizza. 
Sometimes they say they are putting the cheese on the pizza but 
they are just putting the sauce. I mean, it is a different, it 
is not a good reporting structure. And--
    Ms. Brownley. It is not a good reporting structure 
because--
    Mr. Hearn. In other words from the input that we have 
gotten, I will get calls from veterans in my office. And they 
will say, you know, e-Benefits says this. And I will be looking 
at VBMS and it is not matching up exactly. And so, and then so 
I have raised this issue before with VBA going back years. And 
I have said, you know, again using Domino's as an example, if 
they can figure this out as far as whether, you know, what 
toppings they are putting on the pizza, why cannot VA use a 
similar technology? And I have never really gotten a good 
response on that. To me that would be an easy solution, like 
you were talking about.
    Ms. Brownley. Okay. Well I guess I do not, I really do not 
have any more questions. It seems the problems have been laid 
out pretty clearly and I think to resolve it seems to be pretty 
simple. So I will yield back.
    Mr. Bost. Mr. Coffman?
    Mr. Coffman. Thank you, Mr. Chairman. Let me ask each of 
you first, do you think that the claims process, when they 
switched to the new system were the claims processors up to 
speed and ready to go? Were they trained up for this? Mr. 
Hearn, let us start with you.
    Mr. Hearn. By claims process do you mean on VA's side or 
our representatives?
    Mr. Coffman. VA's side.
    Mr. Hearn. I, anytime you implement a new system there are 
going to be problems, I think. And so, but at large I would say 
that they were trained on how to do it. I think one of the 
things that we need to caution with is that everything is 
getting more electronic, right? Everything, they are sitting 
there, they are gleaning all this information out of the 
system. No baseball umpire is a computer. We still need the 
human element in this. And there is too much reliance within 
the network when they are saying, if the computer shows that 
this could be potentially an error to avoid a quality review 
hit they will not override that. And that has sometimes been 
some of the problem that we have noted in there. But as far as 
their understanding of the system, it has been my experience 
when working with the employees that they have been properly 
trained.
    Mr. Coffman. Mr. Gallucci?
    Mr. Gallucci. I would tend to agree that there was proper 
training prior to implementation. However, because this was 
such a complex overhaul I think the unforeseen consequences 
made it much more problematic at least on our end as VSOs, 
whether just how much work was moving around. I think even, and 
I pointed out in my testimony that they had moved work for the 
pre-discharge program, benefits delivery discharge claims. 
There were hiccups all up and down the VA system on this. Our 
rating review specialists in Winston-Salem had identified a 
number of claims that were disappearing during the 48-hour 
queue. When we reported it to VA they did not think it was 
happening at first. It took about two days of back and forth 
and then providing claim numbers and a hard count of the claims 
that were pulled back from Winston-Salem pending rating review, 
there were ten of them, that were assigned to the cloud, the 
station of jurisdiction 499 for the national work queue. They 
did not believe us at first. They almost did not recognize that 
this was happening within their own business process. So I 
think there were a lot of unforeseen complications with the 
rollout of the national work queue. Again, one of the reasons 
we wanted to come here today and articulate this, not to take 
too many shots at VA, but we want to be a constructive partner 
in this and this is what we are seeing on the ground. And we 
hope that they will be responsive to the needs of our clients, 
the veterans that we serve.
    Mr. Coffman. Ms. Yoon?
    Ms. Yoon. Thank you for the question. I would agree that I 
think the training was generally sufficient. However, the one 
thing that was exposed is that at each RO they often have their 
own internal procedures and systems. And when a claim is sent 
to another RO, and if we are used to a certain system at this 
RO, the other RO might do something else. The lack of 
consistency across each office has I believe been more apparent 
and the hope is in the near future that that is something that 
could hopefully be standardized more.
    Mr. Coffman. Okay. Well very quickly, if you all had to, 
you know, we are I think over 90,000 in terms of our claims 
backlog right now. And so we have made some progress but we 
have got a lot of progress to go. What would you, if you were 
going to identify one issue as the leading issue that the 
Veterans Administration needs to change in order to reduce the 
backlog, what would that issue be? Mr. Hearn, let us start with 
you.
    Mr. Hearn. That is a big question, Congressman. Honestly I 
think as, this is not going to impact the backlog as much as it 
is going to impact the appeals and the quality of the 
decisions. But is to stop and look at what you are doing as a 
rater and as a VSR, and make sure that you are considering the 
entirety of the evidence. Because that has been one of the 
biggest problems that we have seen. It is the reason why you 
have got a 50 percent remand rate at the board. It is the 
reason why you have got a 25 percent grant rate at the board. 
It is because nobody is sitting back and really thinking about 
what they are doing when it comes to these decisions.
    Mr. Coffman. Okay. Mr. Gallucci?
    Mr. Gallucci. Congressman Coffman, thank you for that 
question. I think you saw my head nodding a number of times. 
Because it has to do with conflating timeliness and accuracy. 
There is so much focus on the time it takes to get a claim 
done, we have to get them out the door, we have got to move 
through this process fast, fast, fast, fast, fast. And we are 
finding that haste makes waste. I mean, it is a common 
euphemism but pardon my dad joke. But it really becomes a 
problem because our clients come to us for that personal 
interaction to know that we have reviewed their records, that 
what we are claiming is accurate, that VA took into 
consideration the entirety of evidence. And it really makes it 
easier on the back end. I believe now the Board of Veterans 
Appeals docket date is backlogged several years. And that is 
just harder on those veterans. Yes, they may have a rating 
decision but it is probably an inaccurate rating decision. We 
want to get this right the first time.
    This also becomes a problem with the 48-hour review because 
sometimes we have been told, well, we just need to get the 
rating out there. The veteran needs that rating quickly. We are 
talking about two days in a 125-day process. And the clients 
that we work with they understand that if they get two days for 
a quality check it is really not going to affect their, well it 
will only affect their benefits for the positive on the back 
end. That two days is ample time for them to make sure that the 
rating decision is accurate. So thank you.
    Mr. Coffman. Ms. Yoon? Quickly, I am over time here.
    Ms. Yoon. Yes. Yes, I would emphasize possibly to 
reevaluate the work credit system that VA employees have. 
Because again there is this emphasis on speed and there is not 
as much of an emphasis on accuracy. And again, our accuracy 
measurements may be a little different than VA's accuracy. But 
there needs to be an emphasis on reviewing the entire claims 
file, development, looking to see if there is any more 
development that is needed, and also most importantly if an 
exam has been issued, was that exam adequate? And I think that 
that, one of the most common reasons that we see cases kick 
back from the board is because the exam is inadequate. And I 
think that that is an example of something that can be worked 
on and improved at VBA.
    Mr. Coffman. Mr. Chairman, I yield back.
    Mr. Bost. First off, let me say thank you for being here. 
But also let me tell you that the Chairman in the new position 
that he has made an error. The error is that I let the VA leave 
this room before you spoke. I will not do that again. I think 
that they should be here. I think that your answers, you should 
get answers to those questions. And if it needs to be done in 
front of this Committee, that is exactly where I think it needs 
to be done. So that we can actually hold them accountable. 
Because they can, I think the idea and intent of this program 
is good. We want the process to be as smooth as possible. But 
when it takes away your ability to be the advocates that you 
need to be and you have, not to say the VA does not have their 
best interest, the interest of the veteran, but you being the 
overseers that you are, we want to have you have that 
opportunity to do that. We will redo this at some time and make 
sure that we can tell the VA we want to see a progress date of 
where we are at and where the communications are opened up with 
you. I say that with this Committee that we will definitely 
move forward with that and we will have, we will do this again. 
So thank you so much for being here today.
    The Committee is adjourned.

    [Whereupon, at 12:04 p.m., the Subcommittee was adjourned.]


                           A P P E N D I X

                              ----------                              

                Prepared Statement of Thomas J. Murphy 
Introduction

    Good morning, Chairman Bost, Ranking Member Brownley, and Members 
of the Committee. Thank you for the opportunity to discuss the 
implementation and progress related to VA's National Work Queue (NWQ). 
The NWQ is a workload prioritization and distribution tool designed to 
match claims assignment capabilities with VA workforce capacity, 
regardless of state jurisdictional boundaries. This technological 
capability provides the means necessary to ensure Veterans receive a 
more timely decision on their disability compensation claims. The NWQ 
uses sophisticated system capabilities to uniformly prioritize VA's 
electronic claims inventory and allows for the collection of enhanced 
data on processing efficiencies, areas for quality improvement, and 
issues impacting claims processing capabilities. This new environment 
allows VA the flexibility to move claims to locations around the 
country that have the capacity to take the next action on a Veteran's 
claim while maintaining the flexibility at each facility to assign work 
to the appropriate personnel.

Impact on Efficiency

    All Veterans deserve prompt and accurate delivery of all benefits 
including those related to their disability compensation claims. The 
implementation of NWQ is yet another large step towards that goal. One 
of the principal fundamentals of NWQ is to ensure that Veterans are 
served equally, regardless of where they live. A review of disability 
compensation claims completed in fiscal year (FY) 2015 shows that, in 
many instances, the timeliness of decisions rendered was significantly 
impacted based solely on the state in which they lived. Some Veterans 
were receiving claims decisions in an average of 106 days, while other 
Veterans' claims decisions took more than 213 days on average-an 
unacceptable range of 107 days-nearly double the days taken to process 
claims in the regional office (RO) with the best processing times.
    This variance demonstrates the inherent inefficiency in the RO-
based claims model, where each RO receives claims based on geography 
rather than their capacity to complete the work. This variance would be 
much greater had VA not redistributed claims through its brokering 
plan. However, a monthly, manual brokering strategy is labor intensive, 
time consuming, cost prohibitive, and does not sufficiently address the 
variance in our processes.
    NWQ's role in reducing the geography-based variances contributed to 
an overall timeliness improvement during FY16. In March 2016, VA began 
a staggered release of NWQ to certain ROs, with deployment to all ROs 
implemented in May 2016. At the onset of our deployment, the average 
days pending for Veteran's disability compensation claims nationwide 
was 94 days, reduced to 85 days by the end of the fiscal year-a 10 
percent reduction. While other factors beyond NWQ also contributed to 
this reduction in the average days pending, including overtime and 
expanded use of contract medical examinations, VBA's new capability to 
put actionable claims into the hands of its workforce cannot be 
overlooked. While the current average days pending has increased above 
pre-NWQ deployment levels during FY 2017, that is a by-product of 
increased receipts and other factors not necessarily related to NWQ.
    VA's claims adjudication process involves many policies designed to 
ensure that VA fulfills its statutory obligation to assist Veterans 
with their claims. VA breaks the process down into cycles. Upon receipt 
of claims for disability compensation, VA develops evidence, to include 
examinations and records from private and military providers. Thanks to 
the continued efforts of our employees and the capabilities of the NWQ 
tool, VA reduced its inventory of claims awaiting initial review from 
approximately 56,000 claims to 34,000 claims by the end of the fiscal 
year. This inventory has been further reduced to approximately 18,000 
as of the end of January 2017. The average number of days a claim 
awaited first development action has dropped from almost 25 days to 
less than 10 days in FY 2017.
    Following the initial development actions and any follow up actions 
required to gather all necessary evidence, VA prepares a rating 
decision to identify each disability, its severity and its relationship 
to military service. As described above, there are several factors, 
together with the deployment of NWQ, that contributed to improvements. 
However, since implementation of NWQ, VA's inventory of claims that are 
developed and awaiting a rating decision has increased, but with the 
ability to distribute work automatically across the country, the amount 
of time claims that are awaiting a rating decision has dropped from 
about 29 days to 16 days.
    Once a rating decision is completed, VA prepares award and 
notification for the Veteran, as appropriate. The increase in work 
completed in the rating decision cycle, due both to NWQ and other 
factors, also increased the number of Veterans' claims awaiting award 
from almost 9,500 to nearly 12,500, yet the time awaiting award action 
has dropped from 8 days to 4 days. Final awards are reviewed by a 
senior claims processor, and the queue awaiting their review and 
authorization has increased from almost 3,500 to 5,100, yet the time 
awaiting authorization has decreased from more than 4 days to less than 
2 days.

Impact on Average Days Pending

    VA continues to work toward reducing the amount of disability 
compensation rating claims pending over 125 days. While we acknowledge 
that some claims will take more than 125 days to complete, we have made 
significant improvements over the past two fiscal years. In FY 2015, VA 
completed 45 percent of claims within 125 days, improving to a timely 
completion rate of 64 percent in FY 2016. Through January 2017, 66 
percent of disability compensation claims were completed within the 
125-day standard. However, it is important to note that we will not 
disadvantage Veterans by compromising accuracy in exchange for 
expediency and we will continue to fully develop claims (which includes 
considering all evidence, requesting additional evidence or medical 
exams as needed, and take actions on new medical conditions added 
throughout the claims process) to ensure each Veteran receives the 
benefit to which he or she is entitled. We will continue to work with 
Veteran Service Organizations (VSO) and other stakeholders to increase 
efficiencies in these areas to reduce processing time.

Dependency on the Veterans Benefits Management System (VBMS)

    NWQ is a component of VBMS, VA's claims-processing platform, and is 
inextricably linked to the continued success of VBMS, the primary 
technology component of VA's modernization efforts. VA continues to 
develop VBMS in an agile methodology, in order to address changing 
needs and priorities.
    While we know there is more work to be done with regards to VBMS, 
we continue to focus efforts on generating positive and significant 
results. VBMS is poised to capitalize on our achievements to date and 
drive continued improvements in claim processing timeliness, accuracy, 
and transparency.

Emphasis on Quality

    As previously stated, NWQ is a component of VBMS and one feature 
that is built into the NWQ allows VA to measure the amount of rework in 
our system, which we were not capable of measuring prior to VBMS and 
NWQ. Rework is a classic non-value added step in a process. Reducing 
rework will further improve efficiency in our disability claims 
process. VBMS allows any VA employee in the process to ``stop the 
line'' to correct a deficiency in process or an error in the decision, 
a process similar to that used in industry to ensure high quality. VA 
employees began using this process following NWQ deployment in May 
2016, and VA has seen increased numbers of claims returned to an 
earlier stage for correction.
    Because of this feature, we are now able to measure process defects 
based on feedback from our employees. As a result, approximately 6,500 
claims reviewed in FY 2017 to date have been returned to an earlier 
stage for correction, for reasons including missing or incomplete 
development, missing exams, incorrect notice letters, or effective date 
errors. Systematically tracking these errors at the lowest level 
enables us to tailor our training to correct our most frequent 
occurring errors and increase accountability in the claims decision 
process. VA joins Congress, our VSO partners, and Veterans themselves 
in our collective desire to improve the quality of VA's disability 
claims process.

Training and Change Management

    With an endeavor this large, VA expended a significant amount of 
time and resources on a measured change management approach to NWQ 
implementation. Our efforts included briefing various stakeholders, 
training employees, publication of an NWQ Playbook for field users, and 
a myriad of calls and briefings with each VA RO as deployment 
activities ensued.
    Although field personnel have gained experience in the new claims 
environment, the change management and training efforts continue. VA 
has utilized new data to revise Director- and employee-level 
performance metrics and has created a standard suite of reports that 
personnel use to improve workload management and effectively manage 
their resources. Additionally, VA committed to bringing together more 
than 1,100 first line supervisors and division level managers for 
continued training on tools and best practices.

Conclusion

    While VA is acclimating to this new work environment and learning 
to optimize assigning work to existing capacity, we have taken the 
feedback from our employees and stakeholders to heart and are 
implementing methods to increase the amount of local work assigned to 
our ROs. This will allow VA to continue to leverage the proficiencies 
that often come from familiarity to further improve efficiency and 
increase accountability for work actions completed by each RO. While we 
acknowledge that there is more work to be done, it is important to 
recognize that these claims transformational efforts have and continue 
to generate positive and significant results for Veterans.
    I look forward to your continued support and commitment on behalf 
of Veterans, their families, and survivors. Thank you for allowing me 
to address the Committee today. Mr. Chairman, this concludes my 
statement. I would be pleased to answer any questions you or other 
Members of the Committee may have.

                                 <F-dash>
                  Prepared Statement of Zachary Hearn
    Chairman Bost, Acting Ranking Member Brownley, and distinguished 
members of the Subcommittee on Disability and Memorial Affairs (DAMA), 
on behalf of National Commander Charles E. Schmidt and The American 
Legion; the country's largest patriotic wartime service organization 
for veterans, comprising over 2 million members and serving every man 
and woman who has worn the uniform for this country; we thank you for 
the opportunity to testify regarding The American Legion's position on 
``Exploring the national work queue's impact on claims processing''.
                               Background
    The National Work Queue (NWQ) is a paperless workload management 
initiative designed to improve the Veterans Benefits Administration's 
(VBAs) overall productive capacity and assist with reaching the 
Secretary of Veterans Affairs' (VA) goals of eliminating the backlog by 
processing all claims in 125 days with improved accuracy. The NWQ is 
designed to serve as an efficient method to process, develop, and 
adjudicate veterans' claims.
    The premise behind the NWQ is to avoid funneling cases singularly 
through the local VA Regional Office (VARO); instead, its objective is 
to maximize VA's workforce at its 56 VAROs to avoid delays in 
developing and adjudicating claims that plagued the Veterans Benefits 
Administration (VBA) in recent years.
    In response to the mounting backlog of disability claims, VA 
created an electronic claims network called the Veterans Benefits 
Management System (VBMS) to electronically process veterans' claims. 
The implementation of VBMS has been credited with assisting in the 
reduction of the backlog that peaked at 611,073 claims in March 2013. 
With the implementation of VBMS and the elimination of hard-copy files, 
VA gained the ability to electronically distribute cases throughout its 
network of VAROs. Through this, the objective was to maximize its 
workforce, reduce the burden on certain VAROs suffering from under 
staffing, with the ultimate goal of having claims adjudicated in a more 
expeditious manner.
    Beginning in mid-2015, VA began discussing with veterans service 
organizations (VSOs) the NWQ and the program's implementation. By 2016, 
the NWQ was fully implemented and cases that were previously processed, 
developed, and ultimately adjudicated at a claimant's local VARO could 
have been handled by VA employees at numerous VAROs.
    During the creation and implementation phase of the NWQ, The 
American Legion received multiple briefings regarding the program. We 
acknowledged that this program would provide a more efficient manner to 
have claims processed; however, improvements to VBMS would need to be 
made to ensure that accredited representatives would be able to 
maintain contact with VA adjudicators throughout the nation. 
Additionally, there would need to be a notification system installed 
for accredited representatives so that they would know when a claim 
adjudicated in another location requires a review.
    The American Legion is a decentralized organization. Many of our 
service officers working within VA's network of regional offices are 
state employees, funded by state taxpayers. Concerns surrounding the 
assistance of veterans residing outside of a service officer's state 
have been raised to The American Legion. These same concerns have been 
raised by The American Legion to VA. Despite these concerns, VA has yet 
to provide the necessary adjustment to VBMS to ensure the local 
representative can review the case.
    Over the last 18 months, numerous complaints have been provided to 
The American Legion's National Headquarters regarding the 
implementation of the NWQ. Based upon these concerns, The American 
Legion passed Resolution 104 during the 2015 National Convention in 
Baltimore, Maryland stating, ``VA inform representatives at the local 
VAROs of decisions by placing a filter in (VBMS) allowing local 
representatives to find their client's VBMS records, including but not 
limited to, rating decisions by conducting the client's state of 
residence search''. \1\
---------------------------------------------------------------------------
    \1\ American Legion Resolution No. 104 (Sept. 2015): Local 
Accredited Representative Access to Veterans Benefits Management System 
Decisions
---------------------------------------------------------------------------
    To illustrate the frustrations of veteran service officers, The 
American Legion's veteran service officers employed by the Minnesota 
Department of Veterans Affairs (MDVA) contacted The American Legion 
recently pertaining to the NWQ; while MDVA communicated these concerns, 
they echo many of the sentiments we have heard from our field 
personnel. They identified the following concerns regarding the NWQ and 
its impact upon the adjudication of claims:

    <bullet>  Glaring inconsistencies in development and adjudications 
between VAROs;
    <bullet>  Lack of ability to communicate with VA personnel directly 
responsible for claims' adjudication;
    <bullet>  VA is removing the ability to review adjudications less 
than 48 hours following some adjudication;
    <bullet>  Removal of mail and notification lists in the process 
have resulted in an inability for service officers to properly review 
claims' adjudications prior to promulgation;
    <bullet>  VA notification letters indicate that the power of 
attorney (POA) has received a courtesy copy of the correspondence. This 
indication is disingenuous; while true that the POA can review the 
correspondence on VBMS, there is no copy delivered to the POA and most 
often, do not know about the correspondence unless a review of the case 
occurs or the veteran contacts the POA; and
    <bullet>  A lack of ownership of the claim by VA personnel. 
Previous to the NWQ, VA local employees had greater ownership of the 
development and adjudication of claims; since the NWQ's implementation, 
a fracture between VA and service officers has occurred in 
communication and partnership due to frequently receiving little to no 
response from VA personnel at separate locations.

    The lack of communication and ability to effectively advocate for 
veterans has proven terribly frustrating to many of The American 
Legion's service officers. It has added to an increased level of 
distrust; some service officers have reported an increase of VA 
personnel starting to appeal the decision to the Board of Veterans' 
Appeals (BVA), because of the perception of an increased level of 
authority. The frequency of the statements rose to the level that The 
American Legion contacted VA's Office of General Counsel (OGC) to 
question the validity of the statement. In a response to The American 
Legion on December 12, 2016, OGC stated, ``It is not accurate to say 
that the (BVA) has greater authority than the (VARO) to grant benefits, 
or any authority at all to circumvent the law and award benefits at 
will.''
    The American Legion's service officers in Minnesota also reported 
that they were misled regarding the distribution of claims of their 
veterans. Initially, they were informed by VA that the NWQ would result 
in 99 percent of Minnesota veterans' claims being adjudicated at the 
St. Paul VARO. Statistics do not bear true, however; since the NWQ's 
implementation, the number has reduced drastically to only 30 percent 
of veterans in Minnesota having their claims adjudicated within the St. 
Paul VARO.
    Annually, The American Legion visits VAROs as part of the Regional 
Office Action Review program. Last year, The American Legion visited 10 
VAROs; beyond reviewing the quality of adjudications with the VARO, we 
have the opportunity to meet with senior leadership and line employees 
at the sites. Significant concerns regarding the NWQ were raised from 
veteran service representatives through senior VARO personnel.
    Common complaints from VA personnel were about the inability to 
have ownership of local claims, and one VARO could complete the 
majority of the work surrounding an end product (EP), if the product is 
not completed by the end of the business day, it could be reassigned in 
the NWQ to another station with the new station gathering the credit 
for the work. A senior VARO employee expressed that the organization 
operates in a production environment, and yet the proper credit for the 
production is not necessarily being applied. While service officers 
would prefer that all claims were adjudicated within their local VARO, 
most also recognize that the complexity of claims and the need to 
adjudicate the claims in an efficient manner needs to exist. We 
recognize the importance of the NWQ; however, the efficacy of the NWQ 
and the support of the program does require support of the veteran 
service organizations (VSOs).
    For nearly two years, VSOs have been briefed regarding the NWQ, and 
during that span, we have advised VA of the needed changes to VBMS to 
allow the NWQ to be successful. VA continually states that they 
recognize VSOs as key stakeholders; however, if VA continues to fail to 
listen and implement the suggestions by the VSOs.
    The American Legion's service officers support a thriving VA; we 
have a fleet of advocates exceeding 3,000 accredited representatives 
that are available to support VA in its efforts to improve the delivery 
of benefits - but VA needs to listen and address our concerns. For two 
years, we have been advised that our suggestions are not ``high 
priority'' if you are a key stakeholder and have been provided this 
statement for this period of time, it is natural to wonder how ``key'' 
of a stakeholder you are. To be clear, service officers are not a 
hindrance to the process, they could be a powerful part of the 
solution.
    The efficacy of the NWQ rests upon VA making the necessary 
following adjustments:

    <bullet>  Improving the standardization of adjudications 
nationwide;
    <bullet>  VA creating an environment where they are encouraged to 
communicate with service officers regarding individual claims. The 
creation and use of an informal conference could be included in the 
point system to increase participation and potentially reduce appeals;
    <bullet>  Create a notification/mail system to alert the local 
service officer of actions taken on a case;
    <bullet>  Rater does not receive points assigned to the EP until 
the service officer indicates completion of adjudication review;
    <bullet>  Creation of an alert from the service officer to the 
adjudicator indicating a concern surrounding adjudication. Through this 
implementation, VA could avoid numerous appeals simply through having a 
discussion with the service officer;
    <bullet>  Provide hard copy decisions if the claim has not been 
electronically processed, the Power of Attorney (POA) does not have 
access to the e-folder within VBMS, or if a rating decision or 
correspondence is generated with the EP being cleared the same day
    <bullet>  Include examination requests in VBMS; POAs have no 
knowledge if the process is being correctly executed; and
    <bullet>  Do not permit VA employees to remove an adjudication 
awaiting review until two full working days have expired.
                               Conclusion
    The American Legion thanks this committee for their diligence and 
commitment to our nation's veterans as they struggle to receive the 
benefits they have earned for their service to the country. The 
American Legion appreciates the efforts VA has made to improve 
processing claims. When one considers the backlog of claims we all 
experienced less than four years ago, there has certainly been great 
improvement. Success and improvement does exist however; veterans' 
claims needs to be adjudicated in a timelier fashion. The American 
Legion is simply asking for VA's focus not to be solely on VA but to 
the fleet of thousands of advocates that work with VA on a daily basis. 
Through this cooperation, we are confident that the NWQ can be a viable 
product for future claims' adjudications. Questions concerning this 
testimony can be directed to Warren J. Goldstein, Assistant Director in 
The American Legion Legislative Division (202) 861-2700.

                                 <F-dash>
                  Prepared Statement of Ryan Gallucci
    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:

    On behalf of the men and women of the Veterans of Foreign Wars of 
the United States (VFW) and our Auxiliary, thank you for the 
opportunity to offer our perspective on how the Department of Veterans 
Affairs' (VA) deployment of the National Work Queue (NWQ) has affected 
the disability claims process.
    First, VA should be applauded for implementing a national workload 
management solution to ensure that work can be performed at a 
consistent level of quality to deliver timely and accurate benefits to 
our nation's veterans. In the cloud-based Veterans Benefits Management 
System (VBMS), the VFW believes that efficiently brokering work to the 
station best equipped to handle the task is a responsible and 
innovative method to improve the overall disability claims process. The 
VFW knows it has been a persistent challenge for VA to ensure 
consistency and timeliness in its rating decisions for veterans across 
all of its offices. By implementing the NWQ, VA now has the ability to 
track the consistency of its work and ensure that VA employees complete 
tasks to standard.
    Make no mistake, the NWQ certainly speeds up the VA claims process, 
which is generally positive for veterans. If business processes can be 
completed efficiently by VA regional offices that have the capacity, 
this makes sense to VA and ultimately delivers timely benefits to 
veterans. Unfortunately, in deploying NWQ, VA seems to have focused 
solely on speed and consistency, but neglected the customer-facing side 
of accuracy.
    The VFW believes that VA has an obligation to ensure consistency 
across this rule-based system to foster the best possible outcomes for 
veterans. However, VA must remember that its partner Veterans Service 
Organizations (VSOs), like the VFW, play a critical role in this 
cumbersome process as advocates whose inherent function is providing 
quality customer service to the veterans and eligible dependents who 
seek our assistance. Simply put, we meet face-to-face with veterans who 
need help navigating the VA benefits system. As VA-accredited 
representatives, we train our advocates to not only understand health 
care records and the VA benefits system, but also how to serve as 
empathic stewards of highly sensitive information. When we take power 
of attorney for a veteran client, the veteran is placing his or her 
trust in the VFW to serve as a quality advocate in not just filing for 
VA benefits, but also ensuring any awarded benefits are accurate.
    The VFW cannot overstress the customer-facing aspect of our job. 
The primary reason our network of service officers exists is so that 
our veterans do not need to worry about deciphering health care 
terminology or memorizing the VA rating schedule in 38 CFR just to file 
a claim for earned veterans' benefits.
    The VFW provides up to 80 hours of training every year to our 
accredited representatives to ensure they remain proficient in 
understanding the VA benefits system. Our representatives then have the 
responsibility to meet with veterans in person to help develop evidence 
in support of their VA claim, as well as ensure paperwork is filled out 
properly and submitted in a timely manner. What this means is that our 
representatives are proficient in understanding military and civilian 
health care recordkeeping, and must develop a keen eye in identifying 
claimed conditions and evaluating these conditions against the 
prescribed VA regulations for compensation. Moreover, our 
representatives must develop a rapport with their clients to help 
identify any lay evidence that would support their claim, such as 
statements from family members or fellow veterans that can 
contextualize symptoms or validate in-service incidents.
    VA claims are highly complex and small variables can make a 
difference in the accuracy of a veteran's rating decision. One of the 
VFW's contract trainers, Frank Bongiovanni, puts it best when 
explaining our objective as accredited veterans' advocates: ``[VA 
claims advocacy] is the confluence of health care and law. If you 
wanted simple, you're in the wrong line of work.''
    VA has long recognized that VSOs are constructive partners in the 
benefits claims process, which is why VA has long afforded accredited 
VSOs in VA regional offices the opportunity to review proposed rating 
decisions for accuracy. This 48-hour review period outlined in VA's 
Manual 21-1 provides our accredited representatives with one last 
opportunity to perform a quality check on rating decisions. Our 
objective is to ensure that errors are caught and addressed before the 
rating decision ever reaches the veteran.
    Based on the VFW's most recent analysis, we find errors in about 
one out of every 10 claims, and we usually can work with VA to fix them 
prior to promulgation. This is not only a positive for the veterans we 
serve, but this is also a benefit to VA. On a grand scale, if VSOs can 
perform quality reviews on all ratings prior to promulgation, and 
explain the context of rating decisions to our veterans, we will cut 
down on appeals and build confidence in the VA system. On a local 
scale, VSO representatives will learn how to become stronger advocates; 
VA staff will learn how to be more meticulous raters; and veterans will 
receive consistent, accurate, and timely benefit decisions.
    Unfortunately, as the NWQ moves work quickly across VA, the final 
step in the process has the potential to throw the whole system off, 
sullying the veteran's experiece. Under the current system, when VA 
proposes a rating decision, raters will post the decision for the 48-
hour VSO review in VBMS. By default, this rating will populate in the 
``All Claims Queue'' for the VSO located at the office where the claim 
was rated. However, the VSO located where the claim was taken will not 
be notified in any way that a decision has been proposed. These VSOs 
can search for their individual veterans by name or utilize a very 
limited zip code filter to try and track their local clients, but they 
immediately lose optics on the claim. This practice of posting ratings 
in offices other than the original office becomes problematic because 
it does not take into account current technological limitations of VBMS 
to search for and find unique groups of veterans; it does not account 
for current M21-1 guidance that allows for immediate promulgation for 
certain brokered claims; and it discounts the role of VSOs in providing 
quality customer service to veterans we serve face-to-face.
    Moreover, VA currently does not offer an opportunity for VSOs to 
flag potential errors in decisions in VBMS, relying solely on local 
employees complying with VA guidance to address errors. This means that 
VA cannot track this as a quality metric on the back end or hold 
employees accountable for complying with guidance on responding to 
potential errors. The VFW's objective in this testimony is to 
demonstrate why VA must consider VSO priorities to be shared 
priorities, and how each of our concerns is intertwined with how VA 
improves its workflow through NWQ to provide the best possible customer 
experience for veterans.
    With regard to technology, the default view for our service 
officers in VBMS is the ``All Claims Queue'' and this reflects active 
workload for which the VFW has power of attorney in the office where 
the claim is rated (Station of Jurisdiction, or SOJ). This workload 
changes day to day, which makes it nearly impossible to track the 
clients our advocates have met with in person. As this work moves 
around, our service officers are instructed to review any claim that 
populates in their station's work queue in VBMS. Our service officers 
have worked in good faith to do this, but many are concerned that the 
needs of their local clients should come first.
    For those seeking to balance the local and national objectives in 
providing quality customer service, VA has presented several work-
arounds to help track locally-generated work. However, this presents a 
dilemma. Do our service officers support the individual veterans that 
they met with face-to-face? As local, public-facing advocates, we 
believe this obligation is paramount. These are the veterans who call, 
email, and personally visit the office, looking for peace of mind and 
guidance throughout the VA claims process.
    However, our service officers are part of a larger VA business 
process that requires adherence to certain policies and procedures to 
function efficiently and deliver consistent quality decisions to all 
veterans. As good faith partners located in VA facilities, do the 
interests of the broader VA mission come first?
    Finally, in the case of the VFW, many state governments and VFW 
local organizations have made significant financial investments in 
service officer programs to ensure the needs of local veterans can be 
met. As responsible stewards of these financial resources, is it 
irresponsible to deviate from this objective? Moreover, many VSOs like 
the VFW have aligned resources at VA regional offices to sufficiently 
serve the local veterans' population or to support the VA special 
missions assigned to specific offices. This presents logistical 
challenges in handling the influx of rating decisions generated through 
NWQ and creates confusion over responsibility and optics on special 
missions.
    An example of this local mismatch comes from the VFW office in 
North Dakota. The VFW's service office is staffed by two personnel to 
reflect the size of the veterans' community in their region. However, 
when NWQ rolled out, this service office was inundated with brokered 
rating decisions. Our service officer in North Dakota now reports that 
his rating review workload largely consists of brokered claims for 
veterans he has never met. Meanwhile, he has lost optics on the local 
veterans who turned to his office for help, as the North Dakota 
workload moves from station to station. He warned our office that the 
veteran has ``lost local advocacy'' because of NWQ.
    An example of the special mission confusion comes from the VFW's 
Benefits Delivery at Discharge (BDD) program, which is responsible for 
helping transitioning service members file VA benefit claims on 20 
military installations. When VFW built its BDD program, we aligned our 
resources with the VA regional offices responsible for developing and 
promulgating decisions for BDD and Quick Start (QS) claims --Winston/
Salem, North Carolina, and Salt Lake City, Utah. When NWQ was being 
built, VSOs were assured that special work like BDD would be worked 
only at the stations dedicated to those special missions. 
Unfortunately, this was not the case in implementation. Our staff 
located at these special offices started to notice discrepancies in 
their claims queues, noticing that work was disappearing while it 
should have still been available to review. They started to 
meticulously track these claims and not only found brokered BDD work in 
10 other VA regional offices, but also found more than 40 BDD and QS 
claims assigned to the NWQ cloud (SOJ 499), some of which were still on 
the 48-hour clock, and others which had expired.
    The VFW reported this discovery to VA. VA staff at first seemed 
surprised to learn about this, but then seemed nonchalant that this was 
going to be the way forward for not only BDD and QS claims, but 
potentially for other special work like pension claims. The VFW 
implores VA to reconsider this decision and ensure that they consider 
the alignment of VSO resources and the needs of the veterans we serve.
    Our service officers in the field consistently demonstrate that 
they must build trust and credibility with not only their clients, but 
also their local VA colleagues to properly advocate for their clients. 
When these service officers do not have the opportunity to review the 
work for their clients, everybody suffers. At first, it may look good 
that VA was able to send the rating to the veteran more quickly, but 
this is no good if the decision is inaccurate and if our advocates have 
no way to explain the rating decisions to our veterans.
    Over the past two years, the VFW and our partners have tried to 
articulate this dilemma in many different ways to encourage VA to 
provide our representatives with the tools they need to monitor the 
work for veterans they serve face-to-face. To this point, the work-
arounds we have been offered have not achieved the desired outcome. The 
first such work-around was the ability for our representatives to sort 
lists of clients by zip code. However, this proved impractical as some 
regional offices serve hundreds of zip codes. Moreover, the zip code 
sort filter in VBMS is restricted to a certain number of fields, 
meaning offices responsible for larger catchment areas, such as our 
operation in the St. Petersburg VA Regional Office, could never 
possibly sort their clients via zip code.
    Next, VA is proposing to build a new field in VBMS through which 
VSOs could sort by the station where each claim originated (Station of 
Origination, or SOO). This is a significantly improved work-around, but 
again, it is only a work-around. The VFW acknowledges that our 
representatives would be able to sort by the work that originated in 
their station. However, this does not resolve the business process 
dispute that often results in claims moving directly to promulgation in 
lieu of offering 48-hour VSO review, as outlined in M21-1.
    According to the current M21-1, VA raters are instructed to follow 
very specific steps to post rating decisions for VSO review. However, 
this becomes problematic for brokered worksites, like NWQ worksites, 
which are allowed to directly promulgate a decision without offering 
review, if no authorized VSO is available at the redistributed 
worksite. After promulgation, the redistributed worksite is directed to 
return the rating to the SOO. In a scenario where a brokered site 
prepares a rating decision but no VSO representative is present, the 
decision can be promulgated immediately regardless of whether or not 
another VSO representative was tracking the claim in VBMS via one of 
the proposed work-arounds.
    The VFW recently experienced this with a client we are serving out 
of the VFW Washington Office. The veteran was working directly with one 
of our experienced service officers who serves in a management role 
with the organization. This service officer checked VBMS regularly for 
this specific client to ensure that our office would review the rating 
decision for accuracy. However, the claim was assigned to a VA Regional 
Office that recently experienced turnover in the VFW office. While the 
VFW office was vacant, the regional office sent decisions directly to 
promulgation in accordance with M21-1. Unfortunately, when our staff 
member was reviewing the already finalized rating decision, he noticed 
that the regional office failed to address one of the veteran's claimed 
conditions. What ensued was an additional eight month hassle for the 
veteran during which VFW's repeated messages to the regional office 
responsible for the claim went unanswered. We finally started to 
resolve the issue during a coincidental site visit to this regional 
office by VFW national staff to provide onsite training to the new VFW 
service officer.
    The VFW would have caught this error immediately if we had an 
opportunity to review this rating decision, and our client likely could 
have avoided the additional headaches that came after the decision. 
This is the worst possible situation for all involved. It not only 
creates unnecessary stress for the veteran, but it also strains the 
VFW's credibility as advocates and strains VA's credibility as a 
benefits provider.
    Given the current rules outlined in the manual and the practical 
examples the VFW has seen, we believe VA would be best served to return 
claims brokered through NWQ to the SOO for the 48-hour VSO review 
period. To VA's credit, they seem to be coming around on what groups 
like the VFW have been requesting. In a recent meeting with VA, NWQ 
staff informed the VSOs that they are looking to leverage the data from 
NWQ to monitor employee compliance with the 48-hour review period. This 
is a positive step. If employees are cutting corners by promulgating 
decisions before a proper review, they must be held accountable. 
However, the VFW also asks that VA address the problem up front by 
returning the claim to the SOO, and also allowing VSOs to flag rating 
decisions in VBMS when we believe we have found an error.
    Another challenge for NWQ is the process to address errors that 
VSOs identify in rating decisions. At the moment, when a VSO identifies 
a potential error, we are instructed to contact the Change Management 
Agent (CMA) for the regional office responsible for the rating decision 
via email. VA has issued guidance that CMAs should respond to these 
inquiries within 24 hours. However, in the field, this process breaks 
down. The VFW consistently hears from our representatives that they do 
not receive responses in a timely manner, meaning that we must either 
mark the claim as ``Reviewed'' or allow the review period to expire. 
This means that our potential objection to a rating decision is never 
documented in VBMS. The VFW instructs our service officers to log these 
objections in our internal claims management database, but this is 
completely divorced from VA's recordkeeping systems. This means that on 
the VA side, they will see either expired ratings or discover erroneous 
``Reviewed'' ratings of poor quality. This has the potential to erode 
VA's confidence in our advocates, straining local relationships and 
ultimately damaging credibility with the veterans we serve. Moreover, 
this potentially obfuscates errors within the VA system, creating the 
illusion that claims move through the system error-free.
    To remedy this situation and help VA better analyze the quality and 
consistency of its work, the VFW requests that VA allow VSOs to mark 
ratings as ``Queried'' in VBMS. This will again provide a significant 
benefit to VA in improving the quality of the product it delivers to 
veterans. Not only will this help to automate the rating review 
process, it will allow VA to hold its employees accountable for 
addressing potential errors in the digital workspace.
    Again, as VA's partners, the VFW believes NWQ can be a very good 
system to help veterans receive consistent, accurate, and timely 
benefits. We understand and support VA's initiative in resourcing work 
based on capacity in a digital environment. However, the veterans we 
serve expect us to provide the best possible customer service, and we 
would be remiss if we were not candid with VA about the deficiencies we 
see in its work products. As we have seen before, some in VA still 
conflate internal efficiencies with quality outcomes for veterans. Our 
shared interest in this process is to ensure the best possible outcome 
for the veteran, and we hope that VA will recognize that our 
recommendations are ultimately to improve the quality of our shared 
work product.
    We look forward to working with VA to further improve this system 
and continue serving as quality advocates for the veterans we serve. 
Chairman Bost, Ranking Member Brownley, this concludes my testimony and 
I am happy to answer any questions you may have.

                                 <F-dash>
                   Prepared Statement of Kelsey Yoon
    Good afternoon, Chairman Bost, Acting Ranking Member Brownley, and 
other Representatives of this distinguished subcommittee. On behalf of 
the VVA National President, as well as the members of Vietnam Veterans 
of America (VVA), I thank you for affording VVA the opportunity to 
testify today regarding the National Work Queue's impact on claims 
processing.
    The National Work Queue (NWQ) is an IT-based workload management 
system that assigns claims to be adjudicated to a regional office (RO) 
based upon capacity, instead of assigning the claim to an RO in the 
state where the veteran resides. The goal of the NWQ is to eliminate 
the backlog by processing all claims in 125 days. VA is considering 
expansion of the NWQ to appeals and non-rating claims.
    Pre-NWQ, all claims were adjudicated in the same state where the 
veteran resided. This process permitted service representatives to 
develop working relationships with VA claims raters at their respective 
ROs to ensure that decisions were decided accurately and as early as 
possible. Indeed, VA procedures require service representatives to have 
48 hours (or 16 business hours) to fully review decisions for errors 
before the decisions are formally promulgated. \1\ This vital step 
ensures accurate decisions are issued as earliest as possible and 
prevents the need appeal claims.
---------------------------------------------------------------------------
    \1\ See M21-2, Part I, 3.B.3.b (last updated 9 March 2016).
---------------------------------------------------------------------------
    However, since implementation of the NWQ, service representatives 
are further distanced from the claims process, and in some instances, 
blocked out entirely. Although VVA generally supports the use of 
technology and VA's desire to move to a paperless system, the NWQ was 
implemented without prioritizing the crucial role service 
representatives play in the claims process. To date, VA has failed to 
prioritize search features in VBMS for service representatives to 
adequately review claims, neglected to provide accurate information 
concerning how service representatives can connect with a claims rater 
in a timely manner, and decreased transparency in rating decisions. VVA 
believes that due to these deficiencies, we are unable to fix erroneous 
decisions and are forced to appeal more claims.
    VA's failure to prioritize the service representative review 
process is tantamount to fostering an adversarial and anti-veteran 
claims process. Although VA listened to veterans service organizations' 
concerns before, during, and after the implementation of the NWQ, these 
concerns continue to be put at the bottom of the priority list. VVA is 
left concluding that VA is only interested in using the NWQ as a tool 
to eliminate the backlog at the expense of decision accuracy. VVA 
believes the prioritization of speed over accuracy is certainly not in 
the spirit of a pro-veteran, non-adversarial claims process.
    Therefore, VVA strongly opposes the expansion of the NWQ to appeals 
and non-rating claims until, at a minimum, the following 
recommendations are fully implemented.
1. Recommendation to prioritize the Station of Origin (SOO) requirement 
                                in VBMS.
    Currently, it is nearly impossible for a service representative to 
competently assist their veterans through the claims process due to the 
inability to search by Station of Origin (SOO) in VBMS. VBMS does not 
have the functionality to allow service representatives to accurately 
track claims that need review during the 16 business hour review 
period. This request was first raised years ago, and it has still not 
been prioritized.
    The absence of the ability to search claims by SOO particularly 
impacts VVA because we do not have a veterans service program in each 
state to properly monitor claims activities at each RO. As a result, 
the NWQ has forced VVA to assign multiple stations to a single service 
representative; for example, two employees stationed at VVA's office at 
the Appeals Management Office (AMO) cover 11 separate stations every 
day. In addition to the ballooning workload of each employee, the 
quality of review is diminished due to the lack of familiarity with the 
claims file. This is an unacceptable outcome and an unsustainable 
model.
    VVA believes there is no feasible workaround until the SOO is 
prioritized in the next VBMS update. Although VA indicates that it is 
possible for service representatives to search by the veteran's zip 
code, this is not a feasible workaround for VVA service representatives 
who are covering multiple states or hundreds of zip code areas each 
day. Additionally, on February 6, 2017, VA indicated that the zip code 
filter function in VBMS is defective.
    VA has been informed, for years, of the urgent need for this VBMS 
requirement; however, it continues to be given zero priority.
   2. Recommendation to publish CMA contact information for service 
   representatives and to establish pro-veteran protocol for service 
                    representatives' claims reviews.
    Pre-NWQ, when a service representative spotted an error in a rating 
decision during the 16 business hour period, she would be able to 
immediately call, email, or directly visit that VA claims rater to 
discuss the error identified so that it could be fixed quickly. The 
name of the RO was published on the rating decision and the name of the 
claims rater was published on the rating code sheet, so it was easy for 
the service representative to identify who to contact. This permitted 
service representatives to develop collegial working relationships with 
VA claims raters, and ultimately, assisted in preventing errors and 
appeals.
    Due to the NWQ, service representatives may now need to contact a 
rater in another state where the claim is adjudicated. Unfortunately, 
VA has failed to provide accurate information and consistent policies 
concerning how service representatives can connect with a claims rater 
in a timely manner if an error is identified. VA currently directs 
service representatives to first reach out to the VA claims rater 
directly if an error is identified. If the claims rater is not known, 
which is usually the case for a NWQ-claim, VA instructs service 
representatives to reach out to the Change Management Agent (CMA) at 
the RO where the claim was decided.
    Unfortunately, in practice, it is often impossible to reach a VA 
representative at an unfamiliar RO to address a claim in a timely 
manner. VVA believes this is primarily due to two reasons. First, VA is 
unable to produce an accurate CMA contact list for service 
representatives to use if we need to get in touch with someone quickly. 
Second, even if a service representative contacts the appropriate CMA, 
we often do not receive a response for weeks or the response does not 
address the issues or questions raised. By this time, the decision has 
already been promulgated, and the service representative is forced to 
appeal the claim - often on the exact same grounds raised in the 
original email to the rater.
    Therefore, VVA makes the following two recommendations. First, VA 
should publish an accurate list of CMA contact information for each RO 
on its website. This list should be updated in real-time and should 
include a name, email address, and phone number. Second, VA should 
develop and enforce the following protocol for service representatives' 
claims reviews: (1) CMAs or VA raters should respond to rating decision 
inquiries within 8 business hours to confirm receipt; (2) the rating 
decision in dispute is not permitted to be finalized until the service 
representative's challenge is properly reviewed and answered; and (3) a 
VA representative must provide a response to the service 
representative's inquiry within 16 business hours.
 3. Recommendation to include both Station of Origin (SOO) and Station 
of Adjudication (SOA) on rating decisions and to include the full name 
            of the claims adjudicator on rating code sheets.
    Previously, VA would publish the name of the RO that adjudicated 
the claim and the name of the claims rater who made the decision on the 
rating code sheet. This information facilitated the ability of service 
representatives to quickly identify who they needed to contact if they 
found an error with a decision. Moreover, by including this information 
on each rating decision and code sheet, it increases transparency and 
accountability of the claims process.
    Recently, VA has removed both the RO name and the name of the 
claims rater on rating code sheets. Because of these changes, it is 
often difficult to identify which RO adjudicated the claim and it is 
nearly impossible to identify who adjudicated the claim. This 
information is necessary to have if we need to timely connect with a VA 
claims rater to address an error. It is sometimes unclear in the 
``notes'' section of VBMS where the claim was adjudicated; this is 
especially true of a veteran has multiple claims being worked on at the 
same time.
    Therefore, VVA recommends that VA include both the Station of 
Origin (SOO) and Station of Adjudication (SOA) on all rating decisions 
and add the full name of the person who adjudicated the claim to the 
rating code sheet. These changes will increase transparency of the 
claims process and support the service representatives' ability to 
quickly connect with the VA claims rater if an error is found.
    In sum, the recommendations that VVA puts forth today seeks to 
increase the accuracy of rating decisions and prevent appeals, supports 
transparency and accountability of the claims process, and ensures that 
the non-adversarial benefits system is truly working for the veteran. 
VVA opposes the expansion of the NWQ to cover appeals and non-rating 
claims until the issues raised today are fixed.
    Thank you for this opportunity for VVA to share our thoughts 
regarding the NWQ's direct impact on veterans and the claims process. I 
am happy to answer any questions at this time.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
